<html>
<title> - THE NEXT GREAT OBSERVATORY: ASSESSING THE JAMES WEBB SPACE TELESCOPE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                      THE NEXT GREAT OBSERVATORY:
                ASSESSING THE JAMES WEBB SPACE TELESCOPE

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, DECEMBER 6, 2011

                               __________

                           Serial No. 112-55

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






       Available via the World Wide Web: http://science.house.gov





                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

72-165 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               GABRIELLE GIFFORDS, Arizona
W. TODD AKIN, Missouri               DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              MARCIA L. FUDGE, Ohio
MICHAEL T. McCAUL, Texas             BEN R. LUJAN, New Mexico
PAUL C. BROUN, Georgia               PAUL D. TONKO, New York
SANDY ADAMS, Florida                 JERRY McNERNEY, California
BENJAMIN QUAYLE, Arizona             JOHN P. SARBANES, Maryland
CHARLES J. ``CHUCK'' FLEISCHMANN,    TERRI A. SEWELL, Alabama
    Tennessee                        FREDERICA S. WILSON, Florida
E. SCOTT RIGELL, Virginia            HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY



















                            C O N T E N T S

                       Tuesday, December 6, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    12
    Written Statement............................................    13

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    14
    Written Statement............................................    15

Prepared Statement by Representative Jerry F. Costello, Acting 
  Ranking Member, Subcommittee on Space and Aeronautics, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................      
    Written Statement............................................    16

                               Witnesses:

Mr. Rick Howard, Program Director, James Webb Space Telescope, 
  National Aeronautics and Space Administration
    Oral Statement...............................................    17
    Written Statement............................................    19

Dr. Roger Blandford, Professor of Physics, Stanford University 
  and Former Chair, Committee for the Decadal Survey of Astronomy 
  and Astrophysics, National Research Council
    Oral Statement...............................................    29
    Written Statement............................................    31

Dr. Garth Illingworth, Professor and Astronomer, UCO/Lick 
  Observatory, University of California, Santa Cruz
    Oral Statement...............................................    36
    Written Statement............................................    38

Mr. Jeffrey D. Grant, Sector Vice President and General Manager, 
  Space Systems Division, Northrop Grumman Aerospace Systems
    Oral Statement...............................................    51
    Written Statement............................................    53

Discussion.......................................................    58

             Appendix 1: Answers to Post-Hearing Questions

Mr. Rick Howard, Program Director, James Webb Space Telescope, 
  National Aeronautics and Space Administration..................    82

Dr. Roger Blandford, Professor of Physics, Stanford University 
  and Former Chair, Committee for the Decadal Survey of Astronomy 
  and Astrophysics, National Research Council....................   101

Dr. Garth Illingworth, Professor and Astronomer, UCO/Lick 
  Observatory, University of California, Santa Cruz..............   110

Mr. Jeffrey D. Grant, Sector Vice President and General Manager, 
  Space Systems Division, Northrop Grumman Aerospace Systems.....   127

            Appendix 2: Additional Materials for the Record

Ten New Technologies Developed by and for JWST...................   137

 
                      THE NEXT GREAT OBSERVATORY:
                ASSESSING THE JAMES WEBB SPACE TELESCOPE

                              ----------                              


                       TUESDAY, DECEMBER 6, 2011

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 2:05 p.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph Hall 
[Chairman of the Committee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                     U.S. HOUSE OF REPRESENTATIVES

                      The Next Great Observatory:

                Assessing the James Webb Space Telescope

                       tuesday, december 6, 2011
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Introduction

    In 2001, the James Webb Space Telescope (JWST) was ranked as the 
highest priority large space mission in astronomy by the National 
Academies of Science in their decadal survey Astronomy and Astrophysics 
in the New Millennium. Originally estimated by the decadal committee to 
cost $1 billion and to be launched in 2007, JWST was dubbed as the next 
Great Observatory that will be three times more powerful than the 
Hubble Space Telescope in the infrared and eight times more powerful 
than the Spitzer Space Telescope.
    However, after high-level scrutiny arising from years of program 
cost and schedule overruns, NASA recently developed a revised plan for 
JWST that--if fully funded--would enable completion and launch by 
October 2018. The revised budget life cycle costs now total just over 
$8.8 billion.
    The purpose of the hearing will be to receive testimony from NASA, 
academic, and industry stakeholders on the progress and remaining 
challenges associated with completing JWST by the target launch date of 
October 2018, and at a cost no greater than $8.85 billion.

Witnesses

    <bullet>  Mr. Rick Howard, Program Director, James Webb Space 
Telescope, National Aeronautics and Space Administration

    <bullet>  Dr. Roger Blandford, Professor of Physics, Stanford 
University and Former Chair, Committee for the Decadal Survey of 
Astronomy and Astrophysics, National Research Council

    <bullet>  Dr. Garth Illingworth, Professor & Astronomer, UCO/Lick 
Observatory, University of California, Santa Cruz

    <bullet>  Mr. Jeffrey D. Grant, Sector Vice President & General 
Manager, Space Systems Division, Northrop Grumman Aerospace Systems

Overarching Questions

    <bullet>  What confidence should Congress have in the new cost and 
schedule estimates for JWST?

    <bullet>  What are the chief technical and programmatic challenges 
facing JWST? Does the re-plan address systemic issues with the program 
and put it on a path for success?

    <bullet>  What attributes of JWST merited its selection as the top-
priority large-scale mission in the decadal survey Astronomy and 
Astrophysics in the New Millennium released in 2001? Are those reasons 
still valid today? Does the fact that JWST has not been completed as 
envisioned in the previous decade affect the recommendations in the 
most recent decadal survey, New Worlds, New Horizons in Astronomy and 
Astrophysics, released in 2010?

Background

    Previously known as the Next Generation Space Telescope (NGST), the 
James Webb Space Telescope (JWST) was planned as the follow-on space 
telescope, building on the successes of the Hubble Space Telescope. The 
main technical features of JWST include a 6.5 meter diameter mirror 
optimized for observations in the infrared using four specialized 
scientific instruments (detailed below). JWST is set to orbit nearly 
one million miles from Earth in the Earth-Sun Lagrange (L2) point. 
These features are expected to produce unparalleled scientific 
discovery, glimpsing back to the origins of the galaxies, and providing 
insights into the early formation of stars and planets.

Program Timeline

    <bullet>  June 1997--The Next Generation Space Telescope: Visiting 
a Time When Galaxies Were Young report utilized initial feasibility 
studies to present a technological roadmap for the development of the 
next generation space telescope (NGST) in the next decade at a cost of 
$500 million and launch date of 2007.

    <bullet>  2001--Telescope identified by NAS as top-priority in 
Decadal Survey, Astronomy and Astrophysics in the New Millennium; 
estimated cost is $1 billion.

    <bullet>  Summer 2002--Mission Definition Review completed and 
project moved out of Phase A (feasibility studies) into Phase B 
(definition studies); the cost was estimated to be $2.5 billion with a 
launch date of 2010; Northrop Grumman was awarded prime contractor.

    <bullet>  March 2005--NASA identified further cost growth, 
increasing life-cycle cost estimate to $4.5 billion and a schedule slip 
of two years.

    <bullet>  April 2006--Independent review teams concluded that 
JWST's scientific performance and technical content were sound, with 
concern centered on the program's early year funding constraints.

    <bullet>  July 2008--Program confirmation review placed the 
baseline life-cycle cost at $5 billion with a launch date of June 2014.

    <bullet>  June 2010--Senator Barbara Mikulski (D-MD), Chairwoman of 
the Senate Appropriations Subcommittee on Commerce, Justice, Science, 
and Related Agencies, requests an independent review of the program; 
NASA commissioned an Independent Comprehensive Review Panel (ICRP) led 
by John Casani, Special Assistant to the Director at the Jet Propulsion 
Laboratory.

    <bullet>  October 2010--ICRP report delivered to NASA and to 
Congress; NASA notified Congress of increase to cost baseline of over 
15 percent and delay to schedule baseline of over six months, 
triggering a ``Breach Report'' (more below).

    <bullet>  September 2011--JWST re-plan approved with new baseline 
of $8.8 billion total life-cycle cost with launch readiness date of 
October 2018.

Astronomy and Astrophysics Decadal Surveys

    The 2001 Decadal Survey, Astronomy and Astrophysics in the New 
Millennium, identified the then-called Next Generation Space Telescope 
(NGST) as the top-priority for large-scale missions for the decade 
2001-2010. Although the Hubble Space Telescope continues to provide 
excellent science, the NGST would be far more sensitive and be able to 
see light in the infrared that Hubble could not. Pursuing NGST was the 
next logical step in advancing scientific discovery and was believed to 
have sufficient technology readiness to make the telescope affordable. 
The decadal survey estimated NGST would cost $1 billion and be ready 
for launch in 2008.
    Despite changes to the program in the ensuing decade--including 
revised cost and schedule baselines, as well as de-scoping the 
segmented mirrors from an 8 meter to 6.5 meter diameter--JWST was 
supposedly still on track (based on the revised cost and schedule) when 
it was time again for the National Academies to conduct the next 
decadal survey. Given assurances by NASA, the survey committee had 
little evidence to believe otherwise. Yet, even as doubts emerged, the 
committee presented its recommendations assuming JWST would be launched 
no later than the middle of the decade. New Worlds, New Horizons in 
Astronomy and Astrophysics (Astro2010) therefore moved forward under 
the assumption that JWST would be completed as planned and recommended 
pursuit of the next top-priority mission, the Wide-Field Infrared 
Survey Telescope (WFIRST). WFIRST would conduct exoplanet and dark 
energy research. It is now expected that WFIRST cannot begin 
development until after JWST is launched.

Independent Comprehensive Review Panel (ICRP)

    In a letter to NASA in June 2010, Senator Barbara Mikulski (D-MD), 
Chairwoman of the Senate Appropriations Subcommittee on Commerce, 
Justice, Science, and Related Agencies, requested an independent review 
of the JWST program citing concerns about continued growth in cost and 
delay in schedule. The letter requested an independent panel review the 
root causes of the cost growth and schedule delay, to assess NASA's 
plans for completing development and testing of the telescope, to 
review possible changes to the telescope and to provide a minimum cost 
to launch. NASA subsequently commissioned an Independent Comprehensive 
Review Panel (ICRP) led by John Casani, Special Assistant to the 
Director at the Jet Propulsion Laboratory. A copy of the report can be 
found here: http://www.nasa.gov/pdf/
499224main<INF>-</INF>JWST<INF>-</INF>ICRP<INF>-</INF>Report-FINAL.pdf.
    The ICRP report revealed poor budgeting and program management, not 
technical performance, as the root cause for JWST's woes. At the 
outset, it was determined that JWST did not have a proper budget 
baseline and that budgeted reserves were insufficient. They found that 
costs were managed on a year-to-year basis, which led to deferred work 
and corresponding increases to life cycle costs. The cost of deferring 
work further reduced reserves available in later years, resulting in a 
project life cycle cost that continued to spiral out of control. The 
ICRP, however, did not find the funds spent as wasted. Cutting-edge 
hardware had been delivered and tests were underway.
    Specifically, the ICRP provided NASA with 22 recommendations as to 
how to get the program back on track and outlined what it thought to be 
a new cost-to-launch budget profile for a launch in 2014. In summary, 
the report states:

        Based on the issues present in the current plans to complete, 
        the Panel has identified changes to address the root cause 
        issues discussed in the report, plus ones that could be 
        implemented to diminish the risk of future cost increases and 
        delays in the launch date. These are summarized below.

    <bullet>  Move the JWST management and accountability from the 
Astrophysics Division to a new organizational entity at HQ having 
responsibility only for the management and execution of JWST.

    <bullet>  Restructure the JWST Project Office at the Goddard Space 
Flight Center (GSFC) to ensure that the Project is managed with a focus 
on the Life Cycle Cost and Launch Readiness Date, as well as on meeting 
science requirements appropriate to the Implementation Phase.

    <bullet>  Assign management and execution responsibility for the 
JWST Project to the GSFC Director, with accountability to the Science 
Mission Directorate Associate Administrator at HQ.

    <bullet>  Establish the Office of Independent Program and Cost 
Evaluation (IPCE) as the recognized Agency estimating capability, 
responsible for validating the most probable cost and schedule 
estimates developed by projects and for developing Independent Cost 
Estimates (ICE) for major milestone reviews.

    <bullet>  Develop a new JWST baseline cost and schedule plan-to-
complete that incorporates adequate contingency and schedule reserve in 
each year. Include a realistic allowance for all threats in the yearly 
budget submission. Budget at 80% confidence, and require 25% reserves 
in each year through launch. Commission a new ICE, reconcile the new 
plan with it, and update the plan appropriately. \1\
---------------------------------------------------------------------------
    \1\  JWST-ICRP Final report, October 29, 2011, p. 9.

        NASA agreed with all of the recommendations presented by the 
        ICRP and made several changes even before completing its re-
---------------------------------------------------------------------------
        plan of the program. According to NASA, they have now:

    <bullet>  Elevated program visibility, reporting, performance 
assessment and cost control;

    <bullet>  Replaced all JWST senior management at both Goddard and 
Headquarters;

    <bullet>  Elevated JWST to a division level within Science Mission 
Directorate that reports directly to the NASA Associate Administrator 
on a weekly basis; and

    <bullet>  Used ICRP cost and schedule estimates as one of the 
inputs to develop the new baseline.

Summary of JWST Breach Report and Re-Plan

    Pursuant to Section 103 of the NASA Authorization Act of 2005 (P.L. 
109-155), NASA is required to provide Congress with a new cost and 
schedule baseline for major programs that exceed costs by more than 15 
percent or schedule by more than six months. NASA notified Congress on 
October 28, 2010, that the agency anticipated JWST would breach both 
its cost and schedule baselines and deferred its formal response until 
it could conduct a complete assessment.
    In response to the ICRP report and as part of the required report 
to Congress, NASA delivered a Cost and Schedule Analysis Report for the 
James Webb Space Telescope (Breach Report) to Congress on October 21, 
2011, which estimates the full life-cycle cost of the mission to now be 
$8.835 billion with a launch date of October 2018.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    According to NASA's report, the newly programmed JWST baseline:

    <bullet>  Represents a high-confidence, realistic schedule with 
adequate reserves that launches JWST as soon as possible.

    <bullet>  Presents a funding profile that was adjusted to reduce 
risk and provide adequate early year reserves.

    <bullet>  Included a Joint Cost and Schedule Confidence Level (JCL) 
analysis consistent with an 80% confidence level; and

    <bullet>  Was reviewed by the JWST Standing Review Board (SRB)--
NASA's independent external review board--with findings and 
recommendations factored into final plan.

    As evident in Table 1 above, the new baseline will require 
approximately $1.2 billion in additional funding in FY 12-FY 16 (above 
the President's FY 12 request). NASA is proposing that funds be 
redirected from within its budget so that half would come from the 
Science Mission Directorate (with the exception of Earth Science) and 
half from the Cross-Agency Support account. NASA and the Administration 
continue to discuss the budget adjustments with the final determination 
to be reflected in the budget request for fiscal year 2013. The fiscal 
year 2012 budget as passed by Congress on November 17, 2011, reflects 
the additional funds needed for JWST in FY 12 by providing $529.6 
million.

Analysis of Alternatives

    As part of the required Breach Report, NASA asked the Aerospace 
Corporation to conduct an analysis of alternatives (AOA) to JWST to 
ensure that all possible options were given proper consideration. As 
summary, the AOA:

    <bullet>  Reviewed four categories of observatories (airborne, 
ground, space, and variants to the JWST baseline) and assorted 
combinations thereof;

    <bullet>  Measured performance of alternatives against JWST Level 1 
science requirements; and

    <bullet>  Distilled alternatives down to 12 potential options based 
on ability to meet the mission science requirements and technical 
feasibility to analyze in further detail.

    The results of the analysis concluded that the JWST baseline 
continues to be the best value. Specifically, the Aerospace Corporation 
found that none of the alternatives provide the equivalent Level 1 
science requirements at a lower cost or at an earlier full operational 
capability date. Furthermore, while alternative designs might lower 
costs in one area or another, the science that must be given up to 
accommodate those designs rendered the alternative undesirable based on 
the science requirements determined by the National Academies Decadal 
Survey process. Furthermore, many of the 2011 decadal survey 
recommendations are predicated on the groundwork that is to be laid by 
JWST.

Program Design Elements and Status

Sunshield

    A critical element of the telescope's design is a giant tennis-
court-sized sunshield that will block the mirrors and science 
instruments from light from the sun, Moon, and Earth as well as prevent 
radiation from the telescope's own heat-producing equipment. The 
sunshield will consist of five layers--none touching the other--of a 
heat-resistant material called silicon-coated Kapton. Each layer will 
be no thicker than half of a human hair.
    In order to ensure a successful sunshield design and deployment, 
the sunshield has to undergo extensive testing. Currently a template 
membrane has been constructed and tested to validate that its shape 
holds under tension and to verify the folding/packing concept works on 
a full-scale mockup. Additionally, a 1/3-size scale model was 
constructed to test deployment and undergo thermal testing in a 
cryogenic chamber. Construction on the final sunshield has not yet 
started.

Mirrors

    The purpose of the mirrors is to collect the light and channel it 
to the instruments. Because JWST is designed to detect the faintest of 
infrared light, billions of light years away, the mirrors must be 
precisely engineered. JWST's primary mirror is made up of 18 individual 
hexagonal segments that fold up inside the rocket; once deployed, the 
mirrors will function as a single 6.5 meter (21.3 feet) diameter 
mirror--the largest ever to be deployed in space. All 18 mirrors have 
been manufactured, polished, and coated, and all but six have completed 
testing and are ready for final assembly. The final six will be tested 
at cryogenic temperatures with final adjustments made by the end of 
this calendar year.

Scientific Instruments

    The Integrated Science Instrument Module (ISIM) contains four 
science instruments and a guide camera. The ISIM and science 
instruments are 90% complete and are undergoing integration at the 
Goddard Spaceflight Center. The NIRSpec instrument was found to have 
quality issues, which will delay its delivery. However, this delay is 
captured in the new re-plan and should not affect overall schedule.

    <bullet>  Mid-Infrared Instrument (MIRI)--provided by the European 
Consortium with the European Space Agency (ESA) and by the NASA Jet 
Propulsion Laboratory (JPL). MIRI has both a camera and a spectrograph 
that sees light in the mid-infrared, allowing it to see newly forming 
stars and faintly visible comets as well as objects in the Kuiper Belt. 
MIRI's camera will provide wide-field, broadband imaging similar to 
those the public has come to expect from Hubble. The spectrograph will 
provide new physical details of the objects it will observe.

    <bullet>  Near-Infrared Camera (NIRCam)--provided by the University 
of Arizona is Webb's primary imager, detecting light from the earlier 
stars and galaxies. NIRCam is equipped with coronagraphs that will 
allow astronomers to take pictures of very faint objects around a 
central bright object, like solar systems. NIRCam's coronagraphs work 
by blocking a brighter object's light, making it possible to view the 
dimmer object nearby--just like shielding the sun from your eyes with 
an upraised hand can allow you to focus on the view in front of you. 
With the coronagraphs, astronomers hope to determine the 
characteristics of planets orbiting nearby stars.

    <bullet>  Near-Infrared Spectrograph (NIRSpec)--provided by the 
European Space Agency (ESA), with components provided by NASA/GSFC. 
Used to disperse light from an object into a spectrum by which physical 
properties such as temperature, mass, and chemical composition can be 
determined.

    <bullet>  Fine Guidance Sensor Tunable Filter Imager (FGS-TFI)--
provided by the Canadian Space Agency. The Fine Guidance Sensor allows 
the telescope to point precisely, while the Tunable Filter will be able 
to select and focus on extremely specific wavelengths of light. Most 
cameras can only see a certain wavelength, but FGS-TFI will be able to 
pick from a range. The FGS-TFI will be used to study just-forming 
planetary systems and dust disks that could become planets, the 
internal dynamics of galaxies, and the characteristics of elements and 
molecules in clouds of stellar gas. \2\
---------------------------------------------------------------------------
    \2\  http://www.jwst.nasa.gov.

---------------------------------------------------------------------------
Spacecraft Bus

    The spacecraft bus houses the electronics, attitude and thermal 
control, communications, and propulsion systems. These systems are 
considered relatively ``standard'' given that all space telescopes and 
satellites require similar systems. For this reason, design of the bus 
only recently began final critical design review that is scheduled for 
late 2014.

Assembly and Testing

    A majority of the hardware for JWST has been constructed. However, 
due to the nature of the telescope's orbit nearly one million miles 
from Earth and the requirement that it operate in temperatures 
approaching ^400 degrees Fahrenheit, NASA has no ``second chance'' to 
make sure JWST performs as planned. The majority of the cost and time 
remaining to complete JWST will be in assembly and testing. Along the 
way, components must be tested to make sure they function individually, 
as a group, and as the complete telescope. In addition, hardware such 
as platforms and machinery must be specifically made to accommodate 
construction of the huge telescope.
    Goddard Space Flight Center is in charge of assembling each of the 
science instruments into a larger unit, which will be subjected to both 
temperature and vibration testing. The mirrors will be mounted to their 
support structure and tested. The testing ensures that JWST can 
withstand the stress of launch and the extreme conditions in space.
    Johnson Space Center will then test the entire assembly in a large 
120-foot-tall vacuum chamber originally used for the Apollo program. 
The chamber is currently being modified to ensure testing at the proper 
cryogenic temperatures and should be ready for use by summer 2012. Once 
that test is complete, the sunshield and spacecraft bus will be added 
to the package and tested yet again before being readied for launch. 
\3\
---------------------------------------------------------------------------
    \3\  http://ngst.gsfc.nasa.gov/status.html.

---------------------------------------------------------------------------
Recent FY 2012 Appropriation Activity

    On July 7, the House Appropriations Subcommittee on Commerce, 
Justice, Science, and Related Agencies reported an FY 2012 
appropriations bill that provided zero funds for JWST. As stated in the 
report:

        The James Webb Space Telescope (JWST) Independent Comprehensive 
        Review Panel revealed chronic and deeply rooted management 
        problems in the JWST project. These issues led to the project 
        cost being underestimated by as much as $1,400,000,000 relative 
        to the most recent baseline, and the budget could continue to 
        rise depending on the final launch date determination. Although 
        JWST is a particularly serious example, significant cost 
        overruns are commonplace at NASA, and the Committee believes 
        that the underlying causes will never be fully addressed if the 
        Congress does not establish clear consequences for failing to 
        meet budget and schedule expectations. The Committee 
        recommendation provides no funding for JWST in fiscal year 
        2012.

        The Committee believes that this step will ultimately benefit 
        NASA by setting a cost discipline example for other projects 
        and by relieving the enormous pressure that JWST was placing on 
        NASA's ability to pursue other science missions.

    On September 15, the Senate Appropriations Subcommittee on 
Commerce, Justice, Science, and Related Agencies reported an FY 2012 
appropriations bill providing a total of $530 million for JWST, a 
number reflected in the NASA re-plan but not officially requested by 
the Administration. Per the report:

        The Committee strongly supports completion of the James Webb 
        Space Telescope [JWST]. JWST will be 100 times more powerful 
        than the Hubble Space Telescope and is poised to rewrite the 
        physics books. Last year, the Committee asked for an 
        independent assessment of JWST. That assessment, led by Dr. 
        John Casani, found that while JWST is technically sound, NASA 
        has never requested adequate resources to fund its development. 
        As with many other projects, budget optimism led to massive 
        ongoing cost overruns because the project did not have adequate 
        reserves or contingency to address the kinds of technical 
        problems that are expected to arise in a complex, cutting-edge 
        project. Without funds, the only other way to deal with 
        problems is to allow the schedule to slip. That slip, in turn, 
        makes the project cost even more, when accounting for the 
        technical costs as well as the cost of maintaining a pool of 
        highly skilled technical labor through the completion of the 
        project.

        In response to the Casani report, NASA has submitted a new 
        baseline for JWST with an overall life cycle cost of 
        $8,700,000,000. NASA has assured the Committee that this new 
        baseline includes adequate reserves to achieve a 2018 launch 
        without further cost overruns. The Committee intends to hold 
        NASA and its contractors to that commitment, and the bill caps 
        the overall development cost for JWST at $8,000,000,000.

    On November 17, the House and Senate agreed to final FY 12 
appropriations for NASA as part of a ``mini-bus'' that included funding 
for Agriculture, Commerce-Justice-Science (CJS), and Transportation-
Housing and Urban Development (T-HUD). The bill ultimately yielded to 
the Senate version, providing JWST with the full amount needed as cited 
in the re-plan. However, very specific language about how Congress 
expects NASA to manage the program was included in the conference 
report. It states:

        James Webb Space Telescope (JWST).--According to the recent 
        JWST budget replan, the program's lifecycle cost estimate is 
        now $8,835,000,000 (with formulation and development costs 
        totaling $8,000,000,000). This represents an increase of 
        $1,208,000,000 over the previous lifecycle cost estimate, 
        including an increase of $156,000,000 above the budget request 
        for fiscal year 2012. In order to accommodate that increase in 
        this agreement, the conferees received input from the 
        Administration and made reductions to the requested levels for 
        Earth and planetary science, astrophysics, and the agency's 
        budget for institutional management. Although the amounts 
        provided for these other science activities still constitute an 
        increase over the fiscal year 2011 levels, the conferees note 
        that keeping JWST on schedule from fiscal year 2013 through the 
        planned launch in fiscal year 2018 will require NASA to 
        identify another $1,052,000,000 over previous JWST estimates 
        while simultaneously working to meet the deficit reduction 
        requirements of the Budget Control Act of 2011 (P.L. 112-25). 
        As a result, outyear work throughout the agency may need to be 
        reconsidered. The conferees expect the administration to come 
        forward with a realistic long-term budget plan that conforms to 
        anticipated resources as part of its fiscal year 2013 budget 
        request.

        To provide additional assurances that JWST's management and 
        funding problems are under control, the conference agreement 
        includes language strictly limiting JWST formulation and 
        development costs to the current estimate of $8,000,000,000 and 
        requiring any increase above that amount to be treated 
        according to procedures established for projects in 30 percent 
        breach of their lifecycle cost estimates.

        In addition, the conferees direct the GAO to continually assess 
        the program and to report to the Committees on Appropriations 
        on key issues relating to program and risk management; 
        achievement of cost and schedule goals; and program technical 
        status. For its first report, the conferees direct the 
        Comptroller General to assess: (1) the risks and technological 
        challenges faced by JWST; (2) the adequacy of NASA's revised 
        JWST cost estimate based on GAO's cost assessment best 
        practices; and (3) the extent to which NASA has provided 
        adequate resources for and is performing oversight of the JWST 
        project to better ensure mission success. The first report 
        should be provided to the Committees no later than December 1, 
        2012, with reports continuing on an annual basis thereafter. 
        Periodic updates should also be provided to the Committees upon 
        request or whenever a significant new finding has been made. 
        NASA is directed to cooperate fully and to provide timely 
        access to analyses, data, applications, databases, portals, 
        reviews, milestone decision meetings, and contractor and agency 
        personnel.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        
    Chairman Hall. Okay. The Committee on Science, Space, and 
Technology will come to order, and I say good afternoon to 
everyone. We were scheduled for this morning. My script says--
if I stayed with the script, I would be telling you good 
morning. Being of unsound mind, I don't read the script.
    Welcome to today's hearing entitled ``The Next Great 
Observatory: Assessing the James Webb Space Telescope.'' In 
front of you are packets containing the written testimony, the 
biographies, and the truth in testimony disclosures for today's 
witnesses.
    And we will be making opening statements, and I will 
recognize myself for five minutes for an opening statement.
    I would like to thank all the witnesses for taking time 
from their very busy schedules to appear before our Committee 
to discuss the James Webb Space Telescope, and I realize 
considerable effort goes into the drafting and writing of the 
statements, but they are very helpful to us. They are helpful 
to these folks that aren't here that have conflicts, and they 
are at other hearings right now, or they would be here, but 
they get your copies. They have the copy of what you have 
submitted to us, and we thank you for that.
    I want you to know that your testimony, your wisdom, and 
your experience is going to be invaluable to us because we have 
you here because we think you probably know a lot more about 
what we are doing than we do, and we realize you are giving up 
valuable time to prepare for this, to travel here, and to grace 
us with your presence. And your experience will be invaluable 
to help our committee and our Congress as we deliberate in the 
months ahead on related issues to NASA and its portfolio of 
programs.
    The James Webb Space Telescope has been identified by the 
astrophysics community as its top priority program since 2001, 
and just recently NASA itself named JWST as an agency priority. 
The telescope would far surpass in science, power, and 
capability any previous space-based observatory launch by NASA 
and will enable the new observations into the deepest corners 
of our universe, and I suspect it will be at least a generation 
or two before a successor mission is even contemplated.
    The potential new knowledge that will be returned is, in my 
mind, difficult to imagine, while observatories are designed 
and built to answer one set of questions. The record is replete 
with discoveries that even the builders of telescopes never 
contemplated.
    But that is not why we are here this morning. Sadly, the 
James Webb Space Telescope is another case study of NASA's 
mismanagement of a flagship mission where original costs and 
schedule estimates are grossly understated, project execution 
is a litany of missed signals and deferred work, and senior 
agency oversight is invoked only after the project files breach 
reports. The resulting disruptions and breakage do tremendous 
collateral damage to other agency programs and missions as 
management just struggles to find the resources to return JWST 
to a sound footing.
    Not too many years ago, NASA's stakeholder community would 
not be overly surprised with cost and schedule slippages. This 
seems to be an accepted way of life that technically 
challenging missions were expected to exceed original 
estimates, but Congress' tolerance for these type of overruns 
has run out.
    I support the James Webb Space Telescope. The science 
enabled by this mission will be extraordinary, but given 
Congress and the White House's struggles to bring our federal 
budget under control, there are members who have a tough time 
continuing to vote for a program that requires another infusion 
of over a billion dollars. Some of us argued that we should cut 
our losses and move on. Others have suggested that we are 
rewarding bad behavior by continuing to invest in the mission. 
In my view, NASA's latest re-plan for the James Webb Telescope 
is the agency's last opportunity to hold this program together.
    I am anxious to hear from our witnesses about their 
assessment of the steps taken by the agency to ensure high 
confidence in the costs and the schedule estimates going 
forward and in the project's new management structure. I am 
also anxious to hear about the biggest challenges still 
confronting the program.
    Mr. Howard, don't take this personally, but I want the 
record to note that NASA's testimony was provided to our 
Committee late yesterday afternoon contrary to Committee rules 
and past practice. By holding back testimony, Members and staff 
were afforded only a handful of hours to review and analyze 
Administration statements undermining the ability of the body 
to engage in a well-informed dialogue with Executive Branch 
witnesses. The White House's process for vetting testimony of 
agency witnesses continues to frustrate this Committee and 
frustrates Congress. This is not the first time testimony has 
arrived only hours before the scheduled start of a hearing, and 
I urge the White House to exercise greater diligence, and I 
doubt seriously if they will listen to me.
    My thanks, again, to the witnesses.
    [The prepared statement of Mr. Hall follows:]

              Prepared Statement of Chairman Ralph M. Hall

    Good afternoon. I'd like to thank our witnesses for taking time 
from their busy schedules to appear before our Committee to discuss the 
James Webb Space Telescope. I realize considerable effort goes into the 
drafting and writing of statements, and I want you to know that your 
testimony, wisdom, and experience will be of invaluable help to our 
Committee and Congress as we deliberate in the months ahead on issues 
related to NASA and its portfolio of programs.
    The James Webb Space Telescope (JWST) has been identified by the 
astrophysics community as its top priority program since 2001, and just 
recently NASA itself named JWST as an agency priority. The telescope 
would far surpass in size, power, and capability any previous space-
based observatory launched by NASA and will enable new observations 
into the deepest corners of our universe, and I suspect it will be at 
least a generation or two before a successor mission is even 
contemplated. The potential new knowledge that will be returned is, in 
my mind, difficult to imagine. While observatories are designed and 
built to answer one set of questions, the record is replete with 
discoveries that even the builders of telescopes never contemplated.
    But that's not why we are here this morning. Sadly, the James Webb 
Space Telescope is another case study of NASA's mismanagement of a 
flagship mission where original cost and schedule estimates are grossly 
understated, project execution is a litany of missed signals and 
deferred work, and senior agency oversight is invoked only after the 
project files breach reports. The resulting disruptions and breakage do 
tremendous collateral damage to other agency programs and missions as 
management struggles to find the resources to return JWST to a sound 
footing.
    Not too many years ago, NASA's stakeholder community would not be 
overly surprised with cost and schedule slippages. It seemed to be an 
accepted way of life that technically challenging missions were 
expected to exceed original estimates, but Congress' tolerance for 
these types of overruns has run out.
    I support the James Webb Space Telescope. The science enabled by 
this mission will be extraordinary. But given Congress' and the White 
House's struggles to bring our federal budget under control, there are 
Members who will have a tough time continuing to vote for a program 
that requires another infusion of over a billion dollars. Some have 
argued that we should cut our losses and move on; others have suggested 
that we're rewarding bad behavior by continuing to invest in the 
mission.
    In my view, NASA's latest re-plan for the James Webb Space 
Telescope is the agency's last opportunity to hold this program 
together. I am anxious to hear from our witnesses about their 
assessment of the steps taken by the agency to ensure high confidence 
in the cost and schedule estimates going forward, and in the project's 
new management structure. I am also anxious to hear about the biggest 
challenges still confronting the program.
    Mr. Howard, don't take this personally, but I want the record to 
note that NASA's testimony was provided to our Committee late yesterday 
afternoon, contrary to Committee rules and past practice. By holding 
back testimony, Members and staff are afforded only a handful of hours 
to review and analyze Administration statements, undermining the 
ability of this body to engage in a well-informed dialogue with 
Executive Branch witnesses. The White House's process for vetting 
testimony of agency witnesses continues to frustrate this Committee and 
Congress. This is not the first time testimony has arrived only hours 
before the scheduled start of hearings, and I urge the White House to 
exercise greater diligence.
    My thanks again to our witnesses.

    Chairman Hall. And now I am honored to recognize Ms. 
Johnson for her opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman, and I want 
to say good afternoon to our witnesses, and I join Chairman 
Hall in welcoming you. I look forward to hearing from each 
witness today.
    As Chairman Hall has stated, we are here to review the 
status of the James Webb Space Telescope, which has been the 
subject of much attention over the last year and a half as NASA 
has wrestled with cost growth and schedule delays on the 
project. NASA has now developed a plan for getting the project 
back on track, and Congress has provided the agency with the 
funding that it has requested for the JWST in fiscal year 2012.
    I look forward to hearing about the re-plan from our 
witnesses as well as about any challenges and risks that still 
exist.
    In that regard, Mr. Chairman, I believe that this Committee 
is going to need regular updates on this project from NASA so 
that we can have confidence that its milestones are being met 
and so that we can have early warning of any problems that may 
develop. I want to work with you and the agency to ensure that 
we get those status reports on a regular basis.
    It is very important that NASA ensure that this project 
proceeds without further turmoil. As we will hear today, the 
telescope's project's cost growth will have a negative impact 
on all of NASA science activities, not just those in its 
astrophysics division. In dealing with the cuts that will be 
required, I think it is important that NASA allocate the cuts 
to its science programs in a balanced manner that doesn't 
unduly target any single area such as NASA's planetary science 
program. I look forward to hearing more about NASA's offset 
proposal in today's hearing.
    In closing, as we take a look at the status of the James 
Webb Space Telescope and the issues the project needs to 
address, I hope that we don't lose sight of why the United 
States is undertaking this complex mission in the first place. 
The National Academies has rated it as a top priority for the 
Nation's future astrophysics program, and the scientists here 
today will be able to tell us about the path-breaking 
scientific research it is being designed to carry out.
    But there is something at stake beyond the exciting 
scientific breakthroughs and promises. Mainly, like the Hubble 
Space Telescope before it, it will have the ability to inspire 
coming generations to dream and to want to undertake careers in 
science and technology. It is clear that for many of our young 
scientists and engineers to be a starry-eyed, starry night, or 
a picture of the galaxy obtained from a telescope like Hubble 
and perhaps some day from the JWST is the spark that will start 
them on their way. In the midst of our scrutiny of the issues 
surrounding this, I hope that we don't forget that simple 
truth.
    I thank you, again, to our witnesses for agreeing to 
testify today, and with that, Mr. Chairman, I yield back my 
time.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Good afternoon. I want to join Chairman Hall in welcoming our 
witnesses. I look forward to hearing from each of you today.
    As Chairman Hall has stated, we are here to review the status of 
the James Webb Space Telescope, which has been the subject of much 
attention over the last year and a half, as NASA has wrestled with cost 
growth and schedule delays on this project.
    NASA has now developed a plan for getting the project back on 
track, and Congress has provided the agency with the funding that it 
has requested for JWST in fiscal year 2012. I look forward to hearing 
about the re-plan from our witnesses, as well as about any challenges 
and risks that still lie ahead.
    In that regard, Mr. Chairman, I believe that this Committee is 
going to need regular updates on this project from NASA so that we can 
have confidence that its milestones are being met and so that we can 
have early warning of any problems that may develop. I want to work 
with you and the agency to ensure that we can get those status reports 
on a regular basis.
    It is very important that NASA ensure that this project proceeds 
without further turmoil. As we will hear today, the telescope project's 
cost growth will have a negative impact on all of NASA's science 
activities--not just those in its astrophysics division. In dealing 
with the cuts that will be required, I think it is important that NASA 
allocate the cuts to its science program in a balanced manner that 
doesn't unduly target any single area, such as NASA's planetary science 
program. I look forward to hearing more about NASA's offset proposals 
at today's hearing.
    In closing, as we take a look at the status of the James Webb Space 
Telescope and the issues the project needs to address, I hope that we 
don't lose sight of why the United States is undertaking this complex 
mission in the first place. The National Academies has rated it as a 
top priority for the Nation's future astrophysics program, and the 
scientists here today will be able to tell us about the path-breaking 
scientific research it is being designed to carry out.
    But there is something at stake beyond the exciting scientific 
breakthroughs it promises--namely, like the Hubble space telescope 
before it, it will have the ability to inspire coming generations to 
dream and to want to undertake careers in science and technology. It is 
clear that for many of our young scientists--and engineers-to-be, a 
starry night or a picture of a galaxy obtained from a telescope like 
Hubble--and perhaps someday from JWST--is the spark that will start 
them on their way. In the midst of our scrutiny of the issues 
surrounding JWST, I hope that we don't forget that simple truth.
    Thanks again to our witnesses for agreeing to testify here today, 
and with that, I yield back the balance of my time.

    Chairman Hall. I thank you. The gentlelady yields back. If 
there are other Members who wish to submit additional opening 
statements, the statements can be added to the record at this 
point or whenever you present them.
    [The prepared statement of Mr. Costello follows:]

      Prepared Statement of Subcommittee on Space and Aeronautics
                Acting Ranking Member Jerry F. Costello

    Chairman Hall, thank you for holding today's hearing to receive 
testimony on the progress and challenges of the James Webb Space 
Telescope (JWST).
    NASA's astronomy and astrophysics program has revolutionized our 
understanding of the origins and evolution of the universe. The program 
has made incredible progress, including the scientific breakthroughs of 
the Hubble Space Telescope and the five Nobel Prizes in Physics awarded 
to U.S. scientists for discoveries enabled by NASA. JWST holds the 
promise of building on these successes and maintaining our ingenuity 
and scientific leadership, in cooperation with international partners.
    While JWST holds great promise for the future of astronomy and 
astrophysics, the project has gone well over budget and is far behind 
schedule. I am pleased that following stringent review by NASA and 
third parties, the agency is implementing necessary changes to bring 
the project back on track. But while NASA and its contractors are 
moving in the right direction, we must match those technical 
achievements with real progress on the management and cost control of 
these challenging projects if we are going to sustain our scientific 
and technical leadership.
    I look forward to hearing from our witnesses on what steps NASA is 
taking to ensure JWST and its workforce stay on track for a 2018 launch 
and how Congress and NASA can work together to sustain the astronomy 
and astrophysics program in the future.
    I welcome our witnesses and look forward to their testimony. Thank 
you, Mr. Chairman.

    Chairman Hall. At this time, I would like to introduce our 
panel of witnesses. Our first witness is Mr. Rick Howard, 
Program Manager of the James Webb Space Telescope for NASA, a 
position he has held since early this year. Previously at NASA, 
Mr. Howard served as Deputy Chief Technologist, Deputy Director 
of the Astrophysics Division, and has held a number of 
positions in the Office of Space Sciences. Mr. Howard is a 
graduate of the University of Wisconsin, received an M.S. in 
astronomy from Pennsylvania State University, and Mr. Howard, 
we welcome you, sir, and thank you. And thanks for the previous 
visit.
    Our second witness is Dr. Roger Blandford, the Director of 
Cavalli Institute for Particular Astrophysics and Cosmology and 
the Luke Blossom Chair, I will get all that out in a minute, 
and the School of Humanities and Science at Stanford 
University. Dr. Blandford also served as Chair of the National 
Academy of Sciences Decadal Survey of Astronomy and 
Astrophysics. Dr. Blandford received his B.A., M.A., and Ph.D. 
degree from Cambridge University. And welcome, Dr. Blandford. 
We appreciate your presence here today.
    Our third witness is Dr. Garth Illingworth, an astronomer 
at the University of California Observatories and Lick 
Observatory. He is principal investigator of a major Hubble 
Space Telescope imaging program and has been involved with 
major space and ground projects since the 1970s. He served as 
Chair of the Astronomy and Astrophysics Advisory Committee and 
has a long record of involvement in science and astronomy 
policy. In 2010, Dr. Illingworth served as a scientist member 
of the Independent Comprehensive Review Panel that reviewed the 
James Webb Space Telescope Program. Dr. Illingworth was awarded 
an honorary doctor of science degree in 2010 by the University 
of West Australia, and we appreciate your being with us today.
    Our final witness is Jeffrey D. Grant, Sector Vice 
President and General Manager of the Space Systems Division, 
Northrop Grumman Aerospace Systems. Mr. Grant has worked for 
Northrop Grumman since 2002, and previously he worked for 21 
years at the CIA and National Reconnaissance Office. He 
received a B.S. degree from the Florida Institute of Technology 
and has earned a number of performance awards during his 
federal service. It is good to have you here.
    I had a nice visit with Mr. Grant earlier and found out 
that his father and I served in World War II, probably at 
different bases and in different airplanes. I flew hellcats for 
the Navy, and he flew the PBY, and we talked about the PBY, and 
he asked me if I would like to have flown the PBY. I said, that 
is what every Naval pilot wanted to fly because it took off at 
90, it landed at 90, it flew at 90, and pilots lived to be 90. 
So I hope your dad is still with us. I didn't get to ask you 
about that, and may God bless him.
    Okay. As our witnesses should know, spoken testimony is 
limited to five minutes, after which the Members of the 
Committee will have five minutes each to ask questions.
    I now recognize our first witness, Mr. Rick Howard, to 
present his testimony. Mr. Howard, you have five minutes, but 
we don't have a hook. Just do your best to stay as close as you 
can, but your testimony is so valuable, and your presence is so 
appreciated, we will have a gentle Chair for you up here. Go 
ahead now.

                 STATEMENT OF MR. RICK HOWARD,

         PROGRAM DIRECTOR, JAMES WEBB SPACE TELESCOPE,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Howard. I appreciate that. Mr. Chairman and Members of 
the Committee, thank you for this opportunity to appear before 
you today to testify concerning NASA's progress and plans to 
complete the James Webb Space Telescope. Let me begin by 
expressing NASA's thanks to this Committee and to Congress for 
its continued support of this program in the fiscal year 2012, 
budget. We at NASA recognize that we made your already 
difficult task of funding important programs in these 
distressed fiscal times even more difficult through our poor 
past performance on JWST.
    We are, thus, even more determined to restore your 
confidence in NASA by delivering a successful JWST on the 
costs, new costs, and schedule baseline that we have developed. 
It is important to remember why we have undertaken this effort. 
JWST will be the world's premiere space-based observatory and 
will be both the scientific and technological successor to the 
Hubble Space Telescope. JWST will be the most powerful 
telescope ever deployed in space and will have 100 times the 
sensitivity of Hubble. No other nation on Earth could lead such 
a pioneering endeavor.
    In my written testimony submitted to this Committee, I 
outlined a new baseline developed for JWST and provided 
detailed responses to the questions posed to NASA by this 
Committee. I would like to provide a brief summary of the main 
points of those responses.
    You asked about NASA's justification for continuing JWST. 
JWST is the primary tool for addressing many of the major 
questions scientists have about the origins and physics of the 
cosmos. JWST was the top priority large-mission recommendation 
in the 2001 decadal survey and was considered foundational in 
the 2010 decadal survey.
    The independent analysis of alternatives submitted to the 
Congress in October showed that the JWST remains the most cost-
effective way to answer these science questions. The JWST team, 
including more than 1,200 people across the United States, is 
on a new path and has made good progress in fiscal year 2011 
against the milestones that we established back in January of 
2011. Concerning the progress or the process we used in 
developing a new baseline, NASA worked closely with its 
industrial partners to arrive at a new cost and schedule 
baseline for JWST by undertaking a thorough, bottoms-up 
analysis of the work yet to be completed. NASA and our 
standing--independent standard review board and other 
independent groups then subjected the resulting baseline to 
rigorous risks, costs, and schedule analysis. The end result is 
a robust baseline that NASA is confident we can achieve.
    Let me address the work to go and the remaining challenges 
in the program. A significant portion of the work to go is the 
integration, tests, and verification of the observatory. This 
includes the integration and tests of the instruments, the 
optical performance tests of the full 18-segment telescope at 
the Johnson Space Center in Texas, and the integration and 
testing of the spacecraft and sunshield. These efforts 
represent the major technical challenges remaining in the 
program.
    The major programmatic challenge is maintaining a stable 
budget environment and consistent support of the program within 
NASA, the Administration, and Congress. The new baseline is 
complete, and it is now our responsibility to deliver JWST 
within costs and on schedule.
    Let me close by, again, thanking the Congress for your 
support of JWST, your willingness to fully fund JW in fiscal 
year 2012, in support of the new baseline demonstrates your 
commitment to sustaining this Nation's leadership in space 
science. NASA is committed to completing this program 
efficiently and successfully.
    Thank you for the opportunity to appear before this 
Committee today, and I will be pleased to answer any questions 
you have.
    [The prepared statement of Mr. Howard follows:]
                 Prepared Statement of Mr. Rick Howard,
             Program Director, James Webb Space Telescope,
             National Aeronautics and Space Administration



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Hall. Thank you, Mr. Howard.
    I now recognize Dr. Roger Blandford to present his 
testimony. Five minutes. Thank you.

               STATEMENT OF DR. ROGER BLANDFORD,

           PROFESSOR OF PHYSICS, STANFORD UNIVERSITY,

AND FORMER CHAIR, COMMITTEE FOR THE DECADAL SURVEY OF ASTRONOMY

          AND ASTROPHYSICS, NATIONAL RESEARCH COUNCIL

    Dr. Blandford. Good afternoon, Chairman Hall, Ranking 
Member Johnson. Allow me to begin by thanking you and your 
colleagues for your support of the James Webb Space Telescope 
and for the opportunity to add my personal perspective. I 
believe that this support is a courageous recognition by you of 
the scientific importance and value of the telescope and an 
expression of confidence that NASA now has the management of 
this project under tight and realistic control.
    Webb is a 6.5 meter infrared space telescope. It provides a 
huge increase in performance over previous telescopes and 
promises to be a scientific game changer. The two main reasons 
the 2001 survey chose Webb as its highest priority 
recommendation are its capacity to trace light back to the 
first stars and galaxies when the universe was just four 
percent of its present age and its potential to revolutionize 
our understanding of how stars and planets form in our galaxy 
today. These reasons remain valid and are now joined by the 
opportunity to study the many, now more than 700, exoplanets 
that have been discovered around other stars.
    However, Webb will also operate as an astronomical 
observatory. Many, and perhaps most, areas of astronomy will be 
transformed by Webb in much the same way as they have been 
revolutionized by its predecessor Hubble Space Telescope.
    On script to discover is like the realization that 96 
percent of the universe is in an unseen dark form, that massive 
black holes reside in the centers of most galaxies, and that 
most sun-like stars orbited by planets are likely to be made by 
Webb.
    Decadal surveys compel the astronomy community to plan an 
executable program for the coming decade and beyond. The 
astronomy community respects the outcome of these deliberations 
and acknowledges that the most ambitious projects typically 
take more than a decade to bring to fruition, which can lead to 
delays in realizing newer entries into the program.
    The American Astronomical Society, which reflects the views 
of the general astronomy and astrophysics community, continues 
to support Webb despite the strain its delay is placing on 
other proposed missions.
    For the above reasons, Webb is a cornerstone of the 
scientific program that was recommended by the 2010 astronomy 
survey, New Worlds, New Horizons. I believe that if Webb were 
not to be completed, then a very large part of the combined 
science program of these two decadal surveys would not be 
executable, and there would be a consequent call to propose new 
infrared facilities to replace Webb.
    I believe that launching and operating Webb would be 
scientifically transformational and internationally 
inspirational. It would also make a powerful statement that the 
United States still has the resolve to execute large, 
technically challenging, and innovative scientific projects. No 
other country currently has this capability.
    Thank you, again, for the opportunity to address you. I 
hope that my testimony will be helpful, and I look forward to 
answering your questions.
    [The prepared statement of Dr. Blandford follows:]
               Prepared Statement of Dr. Roger Blandford,
               Professor of Physics, Stanford University,
    and Former Chair, Committee for the Decadal Survey of Astronomy
              and Astrophysics, National Research Council



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Hall. Thank you very much.
    I now recognize Dr. Garth Illingworth for his five minutes 
of testimony. Thank you for staying within your five minutes, 
Dr. Blandford.

              STATEMENT OF DR. GARTH ILLINGWORTH,

        PROFESSOR AND ASTRONOMER, UCO/LICK OBSERVATORY,

              UNIVERSITY OF CALIFORNIA, SANTA CRUZ

    Dr. Illingworth. Thank you, and good afternoon. Chairman 
Hall, Ranking Member Johnson, Members of the Committee, thank 
you for the opportunity to testify today regarding the James 
Webb Space Telescope, and I would also like to thank you for 
your support of the recent public 2112-55, which included a 
full amount of funding needed to get JWST back on track for 
fiscal year 2012. This was a crucial step in setting it on the 
path for launch in 2018.
    The James Webb Space Telescope is Hubble's successor. Webb 
will explore scientific frontiers that will not be accessible 
to any other telescope in the foreseeable future. It will seek 
and find some answers to some of the great questions we have 
about the universe, many of which were unforeseen when James 
Webb was conceived.
    Yesterday, for example, we saw the announcement of the 
discovery of a planet, Kepler 22b, in the habitable zone around 
a nearby star in our galaxy. Only JWST has the capability to 
see if liquid water exists on nearby planets like this one.
    The Nobel Prize was awarded recently to three astronomers 
who discovered dark energy. Only JWST can take some of the 
needed steps to advance this field.
    Early this year, my team found the most distant galaxy 
ever, a dwarf galaxy that those that led to the building of the 
Milky Way; it was a faint blob, very young in its formative 
years. We did this by looking back through 96 percent of all 
time to when the Hubble was in its infancy. We cannot go 
further back with Hubble. Only JWST can explore the first stars 
and galaxies.
    Chairman Hall, you asked me about the major faults 
identified by the independent, comprehensive review panel, how 
NASA has responded. The major faults with the JWST Program were 
not technical but were related to management and budget. The 
NASA re-plan takes great strides in addressing the major faults 
identified by the panel. There is now much stronger management 
and oversight. JWST is now a separate program office at NASA 
headquarters, with experienced staff led by Rick, reporting to 
the Associate Administrators of the agency and of the Science 
Directorate. Key leadership changes were made in the James Webb 
project at Goddard. Communications have improved.
    The JWST Program has developed a far more conservative and 
robust plan than before and one that is meeting both the 
detailed recommendations and the spirit of the ICRP's panel 
report. The excellent progress on some critical technologies 
like the mirrors and on the recent milestones over this last 
year also add to the confidence in the program.
    Of course, technical and programmatic challenges remain, as 
one would expect of such a unique program with cutting-edge 
technologies that have never been developed before. This is the 
first time. These challenges, however, do not appear to me to 
be extraordinary for such a major project at this point. Big 
projects will always have such challenges.
    The most critical factors in my mind for assuring that JWST 
is launched on schedule and on budget are, one, James Webb 
needs to be fully funded with adequate reserves in every year. 
Shortchanging James Webb at this point will only create 
additional budget and management problems in the future.
    The James Webb management team must keep all the diverse 
elements of this program focused on meeting their milestones 
and schedules during the lengthy period that remains. Both the 
project and the independent assessment groups must work 
diligently to identify problems and address them rapidly, and 
fourth, it is essential the Congress, including this Committee, 
continue to be engaged and provide the necessary support for 
NASA to be successful on James Webb.
    If James Webb is fully funded, NASA will be on track to 
launch the largest and most powerful space observatory ever 
built by late 2018, within the $8 billion cost cap.
    Chairman Hall, I thank you and the Committee Members again 
for your recent support that has set us on the path to making 
JWST a reality. Launching James Webb will demonstrate again our 
leadership in science and technology to a world that has been 
fascinated by Hubble's remarkable results. As others have said, 
only we, only the U.S., have the capability to do such a 
mission.
    Thank you very much, and I will be pleased to answer any 
questions.
    [The prepared statement of Dr. Illingworth follows:]
              Prepared Statement of Dr. Garth Illingworth,
            Professor and Astronomer, UCO/Lick Observatory,
                  University of California, Santa Cruz



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Hall. Dr. Illingworth, I thank you very much, sir.
    Mr. Grant, present your testimony, five minutes. Thank you.

               STATEMENT OF MR. JEFFREY D. GRANT,

           SECTOR VICE PRESIDENT AND GENERAL MANAGER,

   SPACE SYSTEMS DIVISION, NORTHROP GRUMMAN AEROSPACE SYSTEMS

    Mr. Grant. Chairman Hall, Ranking Member Johnson, and 
distinguished Members of the Committee, thank you for inviting 
me here today on behalf of the men and women of Northrop 
Grumman who are supporting the James Webb Space Telescope. I, 
too, commend the Committee for your continued support and 
oversight of the space program and especially with regards to 
your interest in the James Webb Space Telescope. I would also 
be remiss if I did not recognize NASA's leadership in making 
the Webb Telescope Program possible and also acknowledge the 
extraordinary contributions of our innovative science 
community. It is through our combined efforts and expertise 
that we come together to build the world's next great 
observatory.
    It was in 2002 when Northrop Grumman, then TRW, was awarded 
a key contract on the James Webb Program, a larger-than-ever 
space telescope required to operate at ultra-cold temperatures, 
designed to explore the first stars and galaxies of the 
universe, and study extrasolar planets. Without question, these 
are significant capabilities and it was a significant 
challenge. The Webb Telescope represents a capability beyond 
anything attempted by NASA, our Nation, or anywhere in the 
international community.
    As for our role at Northrop Grumman in the Webb Telescope 
program, the estimated contract value over the lifetime of the 
program is estimated at $3.5 billion, with nearly half of those 
funds already applied to advancing key technologies, completing 
designs, and fabrication of critical hardware.
    We currently employ approximately 265 engineers, 
scientists, technicians, and support staff at our Space Park 
facility and partner with 193 suppliers in 31 states across the 
country.
    In your invitation letter, Mr. Chairman, you asked that I 
respond to three specific questions. One, what are the 
technical and programmatic challenges facing the Webb Telescope 
Program; two, Northrop Grumman steps to ensure costs and 
schedule deadlines are met and; three, the role of integration 
and testing as we move the program towards completion.
    As others have testified here earlier, I reemphasize the 
point, our chief technical challenges on the Webb Telescope, I 
believe, are in two major areas. One is the completion of the 
build and testing of the telescope itself, and two, in building 
and testing the thermal management system. Though much as been 
accomplished, challenges remain, and we recognize we need to do 
better moving forward.
    In the second area you asked about, we have responded to 
the Casani Panel findings and have made significant management 
leadership changes, management oversight changes, and through 
improved communications and decision-making processes, have 
strengthened our relationship between our team, NASA, and our 
partners.
    We continuously evaluate actions to contain costs and have 
implemented a series of improved financial controls in the form 
of metrics, reports, and early alerts. These measures have been 
designed to ensure contractual discipline to avoid unintended 
cost growth.
    The Webb Telescope has a clear path forward and we have 
evidence that the current plan is proceeding on track.
    Lastly, the Webb Telescope Program has a detailed 
integration test and verification plan which was designed to 
reduce program risks through methodical, incremental build and 
tests, retiring risks at each successive integration level of 
the observatory. These integration and test practices have 
served our other satellite systems very well as we typically 
see our satellite systems last for many years longer than 
specified.
    In conclusion, Mr. Chairman, I understand the concerns the 
Committee has raised and feel confident that Northrop Grumman 
has taken the necessary actions to address the technical and 
programmatic challenges before us. We are also taking the 
proper steps to assure cost and schedule guidelines are met, 
and we are enabling our team to successfully reach program 
completion by meeting integration and test milestones for the 
Webb Telescope. I am honored to join my distinguished 
colleagues on this panel today, and thank you for asking me to 
appear before your Committee. I welcome the Committee's 
questions and ask that my full statement as provided to the 
Committee be inserted into the record.
    [The prepared statement of Mr. Grant follows:]
              Prepared Statement of Mr. Jeffrey D. Grant,
               Sector Vice President and General Manager,
       Space Systems Division, Northrop Grumman Aerospace Systems



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Hall. And I thank you for that and thank you for 
staying within your time. We are in a different day and time, 
as all of you know very well, for projecting the needs and 
selling this Congress and selling the American people on the 
amount of money that we are going to put into these programs, 
and we have just gone through increasing the debt allowance 
there, and then we voted that, and that spawned that famous 
committee of 12, supposedly six Republicans and six Democrats.
    Well, that wasn't really true. There were six Republicans, 
all right, we could name there. There were six Democrats plus 
an additional Democrat, who happens to be President of the 
United States, and these other six Democrats didn't have the 
power to override a veto of that seventh Democrat. It was a 
seven to six thrust to start with. So we didn't have a chance 
to get that off the ground.
    But those are the things we are going to be facing in the 
future, and this is a wonderful program, and all of you have 
done a good job, Dr. Blandford, especially. You laid out 
several real reasons why good things are happening and how you 
want them to continue to happen.
    But recent JWST progress reports indicate that I think 75 
percent of the hardware is already completed, yet a little less 
than half the estimated $8 billion development costs have been 
spent. If so much hardware is completed, why will it cost an 
additional $4.5 billion to complete it?
    Who should I ask that? Mr. Howard?
    Mr. Howard. Probably me is the right person.
    Chairman Hall. Okay. All right.
    Mr. Howard. So of the $4.5 billion to go to launch in the 
development phase, the biggest elements of the work to go is 
the development of the spacecraft, sunshield, and the 
integration and testing of all of those elements of the 
observatory. That is the instruments, the instruments and 
telescope together, and then the spacecraft and the sunshield.
    Jeff Grant mentioned a little bit about the complexity of 
that effort. The integration and test activity is the most 
complicated endeavor that we have ahead of us. This observatory 
cannot be tested all fully assembled in the environment that it 
is going to see in space at 40 degrees above absolute zero. The 
best we can do is to do subscale tests, subsystem level tests, 
and tests at the largest level of integration we can, which 
will be down in the chamber in JSC where the telescope and the 
instruments will be able to be tested but not the spacecraft 
and the sunshield. That will have to be done separately. So 
that is the significant portion of the work to go on this 
program.
    The next largest element of the work to go is the 
development of the ground system for JWST, which is an activity 
that is going on at the Space Telescope Science Institute to 
develop and operate JWST and operate the instruments to be able 
to provide the observations that the science community will 
propose to examine.
    Chairman Hall. Mr. Illingworth, you are a member of the 
Independent Comprehensive Review Panel. Right?
    Mr. Illingworth. Yes. That is correct.
    Chairman Hall. And what opportunities have you had to 
thoroughly review the re-plan, and are you satisfied that NASA 
has put forward a responsible and executable plan moving 
forward?
    Mr. Illingworth. Mr. Chairman, the committee, of course, 
was an ad hoc committee that met for 2 months and developed 
this report, which NASA has been responding to for the last 
year. So the committee formally has not gathered back to look 
at the developments.
    However, I have tried over the last year to gain as much 
insight as I can because as a scientist interested in this 
program, I really want this to succeed. I want NASA to succeed. 
And so I have been talking to people across the agency trying 
to understand how things are developing, looking at the 
material that became available publicly, and as I said in my 
testimony and I laid out in somewhat more detail, I feel that 
NASA has actually done a very good job on this re-plan. They 
have developed a plan that is--I would say uniquely 
conservative for NASA in the level of reserves and the approach 
that they are taking. They realized that they had seriously 
flawed management before the time of the ICRP and are trying to 
rectify it as Rick said.
    So I am highly encouraged by what I have seen over the last 
six to nine months on this program.
    Chairman Hall. You know, how much time do I have? Okay. I 
got about a minute and a half left. You remember the Augustine 
Committee and their recommendation that we needed an additional 
three billion a year for two, maybe three years to save our 
space station. Our space station is in danger right now, and 
our whole program is in danger. Our country is in a dangerous 
situation. Money is going to be hard to come by from this point 
forward.
    I think the last three Presidents have failed, and we, this 
Committee and the Members of this Committee on both sides, have 
urged them to put more money into the space program where we 
could have a chance to save it. That didn't happen, so we have 
got a bleak future right now for a wonderful project, and I 
will talk with you more about that later.
    I think my time is up, and I thank you.
    At this time I recognize Ms. Johnson for her five minutes.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    The Hubble Space Telescope has revolutionized humankind's 
vision and the comprehension of the universe, and JWST promises 
to do the same. And while I would like to spend time learning 
more about the inspiring science that JWST is being built to 
study, instead we find ourselves focusing on budgets and 
program challenges.
    So I would like to get clear on how we got to this point 
with JWST, and as Members of Congress we need to understand how 
this situation can be avoided in the future. And so is this a 
case of costs being poorly estimated to begin with, leading to 
insufficient budget and reserves, or is this a case of the 
program being mismanaged, or is it some combination of the two?
    I would like Mr. Howard to start and followed by Dr. 
Illingworth.
    Mr. Howard. Okay. I thank you for the question.
    The cost commitments by NASA at the time when JWST was 
confirmed, when we passed the confirmation review in 2008, was 
$5 billion. The cost is now $8.8 billion. I could give you lots 
of reasons and history on how we got to where we are, but this 
does not excuse the poor management, cost, and schedule 
performance of JWST over that period of time.
    I hope that the details on the history and the changes that 
we have made that are in my written testimony demonstrate that 
we have changed the management priority. The management and the 
priority and the approach and have developed a robust baseline 
and are ready to demonstrate that we can deliver JWST within 
cost.
    Dr. Illingworth. Thank you. Let me add to that.
    I would say the Independent Review Committee came up with a 
number of reasons, but let me just very succinctly put the 
reason, the most clearest and simplest reason I can think of.
    At confirmation in 2008, this project went from a phase 
where it was developing novel, new, extraordinarily high 
technologies into a phase where it was building hardware, 
testing that to launch. The project management and the program 
management overall did not recognize this change of approach, 
that now they were in a construction phase, they needed to meet 
deliverables, they needed to stay tightly on schedule, and they 
could not defer work.
    And so the project, I think, was on a path that was never 
going to meet. We said this clearly in the report. It was never 
going to meet its launch date given that it was deferring work 
and driving up the costs as a result.
    So it was only when that was identified, NASA took that to 
heart, and came back with a re-plan that they got to the point 
where I think they can be on track now to launch this within 
the cost cap by the 2018 date because they have adequate 
reserves in there to meet the problems on a yearly basis.
    Of course, provided the budget is provided each year after 
this one that is appropriate as needed for 2018 launch.
    Ms. Johnson. Thank you. Mr. Howard, what signals did NASA 
miss about the potential cost growth and other problematic 
problems that it should have picked up, and what is NASA doing 
about it now in attempting to manage it?
    Mr. Howard. I think one of the signals, as Garth mentioned, 
was the fact that we knew that we had insufficient reserves in 
the early years in this program, even when it was confirmed, 
and the attitude was, do the best you can with the budget that 
you have.
    Now, part of that was because this program was managed 
within the astrophysics division within the science directorate 
at the agency. That is one of the biggest changes that we have 
made. This is no longer one mission out of 30 or so that the 
astrophysics division has to try and balance across its 
portfolio, and in 2008, 2009 timeframe; just for example, in 
that one year, astrophysics had five launches that it had to 
support, including the Hubble Servicing Mission, the Kepler 
Mission, which we just had a discovery yesterday on, and the 
Hubble Servicing Mission and Hershon Blanch, and in those--
typically in astrophysics, I have been there for 10 years or 
so, you put your resources on the missions that you have 
operating, our assets that are in space, that are doing the 
great science, and then the next thing you do is you put your 
assets on those missions that are about to launch and need to 
be supported to be successful.
    And within that constraint that you had, it was very 
difficult to add additional resources as JWST found and 
identified problems. One of the biggest changes, in my view, is 
elevating this program to an agency priority, an agency program 
where the funding, the additional funding required to complete 
JWST comes out of both the science directorate as well as other 
parts of the agency, and that increase in terms of elevating 
its priority has been significant in terms of being able to 
address the issues and resolve the budget problems, especially 
in the near years.
    This budget profile, as far as I am concerned, is the best 
profile as far as reserves in every year that this program has 
ever had.
    Ms. Johnson. Thank you very much. My time has expired.
    Chairman Hall. The gentlelady's time has expired.
    I recognize Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman--see an effectiveness 
of their government. The sentiment is that our process and 
procedures themselves help cause these problems. Professor 
Illingworth said in his testimony the pace of the federal 
budget process necessarily leads to large lag times for fixes 
to be implemented.
    What lessons can we learn regarding our system of 
budgeting, procurements, and project management based on the 
James Webb Space Telescope experience? We can start with Mr. 
Howard.
    Mr. Howard. Okay. Thank you for the question. I think this 
is a learning process that we have gone on over a number of 
years at NASA. When JWST was confirmed to start development in 
2008, we did not have the tools in place at the time to look at 
the--and do an assessment of the cost to go and the schedule to 
go. We did not have this current policy in place which requires 
doing a joint cost and confidence, cost and schedule confidence 
assessment, which is a much more detailed assessment of both 
the cost and schedule and how they are integrated together and 
the risks associated with that than just doing what was 
traditionally done before that, which was just an independent 
cost estimate.
    So the agency has made decisions to proceed under the 
directions that looks at more detailed cost estimating.
    With James Webb we had not done that. We have done that 
now, so this program and re-baseline was subject to that level 
of analysis. One thing that has come up from the ICRP report, 
which I think the agency has to look at, is for these large, 
complex missions that are very complicated and being done for 
the very first time with new technologies and completely in 
areas that we don't have experience in before. Should we be 
looking at these with a higher level of confidence that we want 
to assign to them, higher than the 70 percent that is typically 
used in the agency?
    I think that is something for the agency to think about and 
consider it as we proceed forward.
    Dr. Illingworth. Thank you, and as Mr. Howard said, I think 
a very important factor here is from the earliest days in 
programs like this, ensuring that you are working to a high 
level of confidence. In fact, the agency has adopted 70 percent 
that the ICRP explicitly said for programs of this nature with 
their complexity an even-more conservative approach at the 80 
percent level joint cost schedule was more appropriate.
    I think if that is done from an early phase and it is 
recognized by the key players, Congress, the Administration, 
NASA as the group doing the program, then the budget lag issue 
becomes a lesser issue. But in the JWST case, it was a catch up 
that NASA recognized there was a problem but couldn't catch up, 
and until it got to the point where it became a public issue, 
and then at that point ICRP got into this, and recommendations 
were made. I think this was very beneficial. I think it brought 
it home to a lot of people across the whole of the programs 
like this, that changes were needed and a more conservative 
approach was needed, and I am glad to see from what I have 
watched this year, seen this year that NASA has taken that to 
heart and really is planning this program with much higher 
level of reserves to a much greater degree of confidence.
    Mr. Palazzo. Thank you. NASA is planning a number of high-
priority missions recommended for the next decade by various 
decadal surveys. How will James Webb cost overruns affect high-
priority missions outlined in the astrophysics decadal surveys 
such as WFirst, and to the extent you have insight into the 
other science mission divisions, such as Earth science, helio-
physics, or planetary, can you also comment about James Webb's 
impact to the greater science portfolio?
    We start with Dr. Blandford.
    Dr. Blandford. Thank you. I think it is clear that it will 
lead to a deferral of the start of these proposed missions like 
WFirst, and I think that will also--it will have some impact, 
although we don't yet as know what the NASA plan is, and this 
will probably be manifested in the next budget, on missions 
from other parts of Earth space science.
    This is obviously a great disappointment to the scientific 
community, but I think it is one that they will have to accept, 
and we will, I hope, build WFirst before too long, and it will 
have its glorious scientific program ahead of it.
    Mr. Palazzo. Dr. Illingworth, do you have anything to add?
    Dr. Illingworth. Yes. Thank you. I think Dr. Blandford has 
said it very well. It is a key concern for the community. I 
think that none of us involved in the James Webb Space 
Telescope likes to see changes like this happen that push out 
other programs. It is very regrettable, but the James Webb 
Space Telescope was the highest priority program, so 
ultimately, it becomes a question of priorities. When resources 
are tight, that is where we go. We choose the highest priority. 
Thank you.
    Chairman Hall. The gentleman's time has expired.
    The Chair now recognizes Ms. Lofgren, the gentlelady from 
California.
    Ms. Lofgren. Thank you very much, Mr. Chairman, and I want 
first to particularly welcome the two witnesses from Santa 
Clara County, Dr. Blandford up at Stanford, and Dr. Illingworth 
from the University of California, Santa Cruz, located at the 
Lick Observatory, also the tip-top Santa Clara County. It is 
great to have you here.
    I think this hearing has been very helpful because 
obviously we have a number of questions to ask. First, are we 
on track, what lessons have we learned for the future? And then 
also I think there is a fundamental question, not for me, but 
for the country at large, including some of our colleagues of 
why we are doing this. And only when you see the discovery 
yesterday by the Kepler Telescope, it renews--my enthusiasm 
wasn't lagging to begin with, but, you know, in these times, 
you know, why is this important to America? What does this 
matter in terms of--make out the case for science but also for 
society and why we should make this investment.
    Dr. Blandford and Dr. Illingworth, if you would.
    Dr. Blandford. Perhaps I could supplement. There was 
actually a second discovery yesterday that was reported, which 
was by my colleague, Professor Chung-Pei Ma from the University 
of California Berkeley and her team reporting on the most 
massive black holes found----
    Ms. Lofgren. Oh, that is right.
    Dr. Blandford [continuing]. In the galaxies, now 10 and 20 
billions solar masses, beating the previous record of six. So 
the pace of discovery does not let up in astronomy, and it 
won't with these wonderful new telescopes. What it does for 
society, I think there are many answers to that, but 
undoubtedly it inspires young people, many scientists and 
technologists, it is an entry point into what they ultimately 
build careers on. I think the developing high technology is a 
generator of jobs. I am not economist myself, but I think there 
is a large multiplier that can come from such projects.
    Ms. Lofgren. Well, there certainly has been with all the 
NASA programs.
    Dr. Blandford. Involving NASA programs and it is 
inspirational for all of us. I think astronomy is remarkable 
for how communicable the results of contemporary research--how 
communicable it has become, and I think the--we can all enjoy 
at very different levels the results that come from these 
wonderful telescopes.
    Ms. Lofgren. Thank you. Do you have anything to add, Dr. 
Illingworth?
    Dr. Illingworth. Yes. Thank you very much for the 
opportunity. Interesting, I think, today there is going to be 
an announcement that Hubble scientists have published the 
10,000th paper with that telescope. This is absolutely 
remarkable productivity for an amazing mission.
    I think the science is, in a sense, I am questioning, we 
all know of Hubble and the amazing things it has done, and 
James Webb is its successor. I think more immediately as you 
mentioned for the societal interest in this, beyond the 
inspirational aspect that comes from a science program like 
this, there clearly are jobs. There are high-technology jobs 
that are very important that can only be done here. We do them 
close links with their contractors, and as Dr. Blandford 
mentioned and my wife has pointed this out to me, too, she is 
an economist, that there is a multiplier effect which is many 
times when you do a unique high tech or skilled job like this, 
and so there are job benefits in the short term and over all 
time.
    Now, after long term are the educational benefits, the STEM 
issues, doing science and technology education. This is just so 
critical for us, and missions like this bring into everybody's 
living rooms as we have just seen in the last day with 
announcements of new discoveries, amazing scientific results 
that only we really can do with these missions.
    Ms. Lofgren. Thank you very much. I am already convinced, 
but turning to you, Mr. Howard, in your written testimony you 
mentioned that these missions are technology providers, 
enabling in reducing technology risks of smaller missions that 
could otherwise never afford to develop such technologies.
    What sort of other benefits may we see from this mission? 
What were you thinking of?
    Mr. Howard. Yeah. Thank you for asking that. In addition to 
developing technologies that other missions, smaller missions 
just would not be able to do in the timeframe or without the 
resources that were already invested in missions like JWST, the 
new technologies developed on these large missions benefit 
other agencies.
    And so a couple of examples are right now we are actually 
flying on Hubble a technology developed by JWST, an integrated 
circuit system which was put on for the advanced camera for 
surveys, when we repaired that on the last servicing mission, 
is technology that came out of JWST.
    In addition to that, the innovations in metrology 
technology that have been on JW have trickled over into the 
medical device metrology measurement of human eyes, diagnosis 
of ocular diseases, and improve surgery, and there is a 
technology that you wouldn't necessarily have thought applied 
over, but it is these new innovative metrology techniques that 
we used to develop the large mirrors that has trickled over 
into other areas.
    Ms. Lofgren. Mr. Howard, I see my Chairman is about to 
gavel me out of order. I would welcome the additional lists I 
think you were about to tell us. If you could send that to us 
after the hearing, I would love to see it, and I yield back, 
Mr. Chairman.
    Chairman Hall. And I thank you.
    Before I recognize Mr. Brooks, I want to recognize Dr. 
Illingworth mentioned something about his wife. We have a wife 
here of Congressman Hultgren of Illinois. We are very happy 
always to have you here.
    I recognize Mr. Brooks for his five minutes.
    Mr. Brooks. Thank you, Mr. Chairman, although I believe 
that is Mr. Buschon's wife.
    Chairman Hall. Oh.
    Mr. Brooks. Oh, they are both here. I have been looking to 
the left--sorry about that.
    Now to more serious matters, but we had the White House 
Christmas party last night. That explains a lot.
    The Science, Space, and Technology Committee has put 
together a timeline concerning the James Webb Space Telescope, 
and in June of 1997, the original estimate was a launch date of 
2007, at a cost of roughly $500 million. In 2001, the telescope 
was identified by NASA as the top priority in the decadal 
survey with an estimated cost of $1 billion. In the summer of 
2002, we had a mission definition review that indicated the 
cost was now $2.5 billion with a launch date of 2010, and March 
2005, NASA identified further cost growth. Now, $4.5 billion 
with a scheduled slip of two years to launch date of 2012. We 
move onto July 2008. We have another program confirmation 
review that says that the cost is up to $5 billion and a hope 
for launch date of 2014. Then we move to September 2011, and we 
now have a baseline of $8.8 billion total lifecycle cost with a 
launch readiness date in 2018. So we have had a slippage both 
in cost and in launch dates.
    I want to put that in the context of some of the financial 
issues that America is facing. As many of you all know, in this 
last three years we have had budget deficits of $1.4 trillion, 
$1.3 trillion, and $1.3 trillion. Our accumulated debt is now 
over $15 trillion and is growing at over a $1 trillion a year 
rate with no end in sight.
    Our interest on our debt was a little over $200 billion in 
the fiscal year that ended September 30; however, those were at 
record low interest rates, somewhere in the neighborhood of 
below a percentage point for short term of treasury bonds, 
short term being a year or two or less. Long term, it was a 
little over two percent.
    Compare that to Italy, which is a little bit further along 
the path that America faces with these deficit problems, where 
their bond rates are now over seven percent.
    If something like that were to happen to America, and if we 
continue on this path, then it will happen to America, you can 
see our interest on the debt jump from the $200 and something 
billion dollar range to $600 billion a year or more.
    That all having been said, I think you all can get a pretty 
good grasp that we have some serious financial issues facing 
us.
    Now, what is the reaction that we are looking at right now 
in the United States Congress? Well, we are looking at spending 
more money. One hundred and eighty billion dollars of 
additional debt on our country for this year alone for things 
like extending the Social Security and Medicare tax break that 
last year was given to American citizens at a cost, by the way 
to the solvency of Social Security and Medicare, extending 
Unemployment Compensation benefits, the sustainable growth 
rate, fixing that, or the doc fix as it is commonly known, to 
help ensure that Medicare patients have access to physicians 
when they need it. The list goes on and on and on.
    That having been said, I would like you all's rather quick 
insight on whether the James Webb Space Telescope is truly the 
number-one priority for NASA, in which case if we have to 
reduce funding for NASA because of all these other issues 
hammering us all at the same time, we will know that you are 
comfortable with reducing those other items because they are 
lesser NASA priorities, or if not, what NASA priorities are 
higher priorities?
    And Mr. Howard, if you could please go first.
    Mr. Howard. Thank you. Sure. I would be glad to. The NASA 
Administrator has stated that his top three priorities in the 
agency are JWST, SLS, and MPCV, and certainly as the budget 
deliberations go on and we see what the actual budget comes in 
at, that has to be re-looked at see how we can continue to 
produce, to proceed with those three priorities.
    I can't predict exactly what will happen for '13, but I 
know for in '12, those three programs are funded at the 
appropriate level to continue forward.
    Mr. Brooks. Mr. Blandford, Dr. Blandford.
    Dr. Blandford. It is very hard for me to speak on behalf of 
the Administrator in NASA. I don't think I can----
    Mr. Brooks. I am asking for your opinion.
    Dr. Blandford. My opinion is that science, the space 
science program, is one of the things that is most important 
for NASA to do. It does it extraordinarily well, and I hope 
that in the coming budgets its past successes will be reflected 
in the future program that is recommended.
    Mr. Brooks. Mr. Chairman, I see that my time has expired. I 
don't know if----
    Mr. Rohrabacher. [presiding] The Chairman----
    Mr. Brooks [continuing]. We have enough time for the last 
two witnesses----
    Mr. Rohrabacher. We have a new Chairman now. I am going to 
make sure that you have the time to make sure that your 
question is answered by all of the witnesses. Go right ahead.
    Mr. Brooks. Thank you. Dr. Illingworth.
    Dr. Illingworth. Thank you. I recognize what you are 
saying, and I think that a key path forward out of our problems 
lies with education, with technical and scientific education, 
and a skilled workforce. I think that programs like James Webb 
and many of the other ones in NASA, but particularly the high-
priority programs, are absolutely essential to this, and James 
Webb is a 30th--three percent of the NASA budget and less than 
1/10 of a percent of our discretionary budget. It is very 
small, I think, for the huge gains that it brings for inspiring 
our younger people to look to the future and improve our 
scientific and technical education.
    Thank you.
    Mr. Brooks. Thank you, and Mr. Grant.
    Mr. Grant. Thank you. I would like to add to the comments 
made by my colleagues I personally find the program 
inspirational, and we have, early in the program, built a full-
scale model of this James Webb Space Telescope, we have taken 
it to Seattle----
    Mr. Rohrabacher. If I could take the Chairman's 
prerogative, we will give him time to get his question 
answered, not something else. Go right ahead and answer his 
question.
    Mr. Grant. I believe that inspirational programs should be 
part of NASA's priorities.
    Mr. Brooks. Well, my question was what are lesser 
priorities that you believe should be cut, or do you have the 
James Webb Space Telescope as the top priority, which by 
inference means everything else is what we should be looking at 
if we continue with these cost overruns with the James Webb 
Space Telescope?
    Mr. Grant. I can't answer that question for NASA, for the 
Administrator, but what I can say is the program that I find 
inspirational and believe the programs that are----
    Mr. Rohrabacher. If you could, let us get on the question, 
could you answer that question? James Webb is the number one 
priority, the rest to be cut?
    Dr. Illingworth. This--as Rick said, the Administrator has 
clearly stated the top three priorities. I think, as Dr. 
Blandford said, science plays a truly major role, and we do it 
through NASA in a uniquely inspirational and powerful way 
worldwide. Nobody else can do this.
    Mr. Rohrabacher. So do you have----
    Dr. Illingworth. I have to, you know, give high priority--
--
    Mr. Rohrabacher. So you are not going to answer the 
question. Would you like to answer the question?
    Dr. Blandford. I think the reason why we are having 
problems with this question is because we are not--I am not 
terribly familiar, and I don't think he is, with the other two 
major components----
    Mr. Rohrabacher. All right.
    Dr. Blandford [continuing]. Of the Administrator.
    Mr. Rohrabacher. Mr. Howard.
    Mr. Howard. So one thing I wanted to point out was that the 
NASA Administrator has decided that funding the additional 
funds for JWST in this time period still stays within his top-
line budget, what he gets.
    Mr. Rohrabacher. Uh-huh.
    Mr. Howard. And I think it is important to recognize that 
it was seen as this needs to be an agency solution and not just 
out of science, not just out of astrophysics, and this is why--
--
    Mr. Rohrabacher. I don't think that was the question. Could 
you repeat your question to the witness?
    Mr. Brooks. Thank you. I am trying to get your individual 
opinions, not your assessment of what NASA's may be, although 
with respect to Mr. Howard, they may coincide with them, but 
your opinions as to what priorities should be advanced, and 
where do you place the James Webb Space Telescope? That is, the 
James Webb Space Telescope continues with these cost overruns, 
what in your judgment are lesser priority items that we should 
reduce funding for in order to fully fund the James Webb Space 
Telescope?
    Mr. Howard. And so just let me finish what I was saying, 
which is I think some of those decisions have already been 
made, and you will see them in the operating plan that comes 
forward next month in terms of where the reductions are made in 
space science across the other divisions in order to pay for 
the increase in fiscal year 2012 to cover James Webb. That will 
be in the operating plan.
    Mr. Rohrabacher. I will let the record show that this is a 
very significant question and that at least three of the 
witnesses were unable to answer the question.
    Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thanks to the panel. 
I am going to try at the end of my five minutes to ask you a 
question you can't answer so I can get 10 minutes of your time.
    I appreciate your testimony, and I know you see strong 
support for this project by and large here but obviously 
concern about the cost overruns, and I thank you for addressing 
those head on and indicating any management lapses that were 
part of the reason for the overrun are being handled.
    I am interested in this--in the telescope for a variety of 
reasons. One, I am excited by just the pure discovery element 
of it, which I think can energize a whole new generation of 
scientists and other careers in the STEM arena, and so 
certainly as an education driver it is a significant and, I 
think, meaningful investment for the country to make.
    But I am also interested in it as an economic driver. Given 
the cost associated with it, even with the overruns, I think 
that the multiplier effect it has in terms of economic 
opportunities and, frankly, jobs that can be created is 
significant. I thought I heard in some testimony that there 
were over 150, up to 200 different companies or suppliers that 
were part of delivering components for this telescope, and I 
assume, and I would like whoever would want to address this to 
do so, I assume that has kind of a pulling effect in terms of 
those companies that are contributing to the effort are 
developing technologies for purposes of delivering the products 
to the telescope, but in generating those technologies, they 
are creating other opportunities for themselves and for their 
peers within a particular industry. And that is all about being 
an economic driver.
    So I think one lens through which we can look at this James 
Webb Telescope is through this lens of it being an economic 
driver, and particularly an economic driver for the American, 
for the U.S. economy.
    So if you would like to speak to that, I would appreciate 
it.
    Mr. Howard. Sure. I will answer that. Thank you. So, as I 
mentioned, we have over 1,200 full-time equivalent positions 
across the country that are supporting James Webb right now. 
That doesn't include an additional 200 or 300 folks that are 
working at the subcontractors level and the supply chain 
providing, you know, nuts and bolts and fittings and various 
things like that.
    So it is a fairly large workforce. Of that total there are 
only 100 civil servants. So all of this effort is being done in 
the U.S. with the U.S. industrial base and workforce.
    Both the high-tech jobs as well as what you think are 
relatively straightforward jobs like welding structure together 
that we need to support and build the telescope and hold it on. 
This is spread across 27 States and the District of Columbia. 
So the effort is across the entire country and does have that 
kind of a multiplication factor in terms of the work that is 
done and the things they learn from that, especially in the 
technology area where they can then take those, the companies 
can take those technology advances and apply them to other 
programs within the United States.
    Mr. Sarbanes. Mr. Grant, maybe you could speak from the 
perspective of the contractor in terms--obviously you have a 
certain expertise already in place, and that is how you get the 
bids to deliver a product, but in providing the product, I am 
sure that you are pulling on your own organization to be on the 
cutting edge, and then you work with other subcontractors and 
so forth.
    So can you talk about that ripple effect? I would 
appreciate it.
    Mr. Grant. Congressman Sarbanes, one of the examples I 
would cite is where we have seen the technology that has been 
invested in JWST come to broader use is just in the area of the 
optics. We just completed delivery of the last of the flight 
segments this year, and the segments themselves are about, from 
a density perspective, 20 times lighter than the comparable 
optics that you would see on the Hubble Space Telescope. And 
what that means to the Nation and future systems is that they 
will be able to harvest that technology and put it into other 
programs that need comparable large optics or smaller optics at 
much lighter weights.
    And that is something that has taken us a number of years, 
but like I said, we have successfully delivered all the mirror 
segments and really demonstrated the applicability of this 
technology.
    Mr. Sarbanes. Thank you all very much. I yield back.
    Mr. Rohrabacher. Are you sure you don't have a follow-up 
question to that? Got lots of time for you.
    All right. Mr. Hultgren, please.
    Mr. Hultgren. Thank you, Chairman. Thank you all for being 
here, and this is really important, and we need to be looking 
at everything we are doing to make sure that we are doing it as 
well as we can and especially looking at cost overruns and 
things, to have that accountability, especially in times like 
this where times are tight and as we are forced to prioritize.
    I do believe so strongly, we have talked, we have had 
amazing hearings over the last months here in the Science 
Committee, and really getting back to American exceptionalism 
historically in science and just wanted to talk a little bit 
about that and wondered if I could get your perspective of the 
role that JWST plays really in America being at the forefront 
of kind of next discoveries.
    Hubble, you know, had so many incredible discoveries and 
would like to kind of get your thought from two perspectives. 
One, what maybe we could expect from JWST as far as some 
discoveries might go but then also that our role in this as 
America, how that plays in the international community of 
drawing the best and brightest from around the world to be a 
part of this type of thing.
    So I wondered if you could maybe talk about that if any of 
you have any thoughts.
    Dr. Illingworth. There is no doubt as Hubble's success--
Hubble has brought worldwide attention to U.S. scientific 
leadership and productivity as we travel, and I am sure all of 
you had this experience, that coming from this country you go 
abroad, people talk, you talk to them about what I do, and they 
are just delighted with Hubble. This is so important for us 
that we have these programs that we can always look up to as 
demonstrations of our leadership and capabilities in science.
    James Webb will be that program. Hubble will not live 
forever. Probably some time this decade, we will probably see 
the end of the life of Hubble. At that point, we really would 
like to have James Webb up there to carry the flag forward for 
science and for U.S. leadership in this area.
    Mr. Hultgren. Thank you.
    Dr. Blandford. Just to add to that, James Webb, I believe, 
will be the magnet that Hubble is being and will bring people 
here from all around the world and will be the expression of 
the ability of the United States to execute a program of this 
magnitude, and perhaps, if I might use an example, which many 
of my colleagues work in particle physics, the Large Hadron 
Collider in CERN has been a magnet for particle physicists all 
around the world, and that would be a sort of candor example, 
if you like.
    Mr. Hultgren. Yeah. I feel that one personally. I represent 
Fermilab, and they are trying to shut it down in the last 
month, and I have seen so much go on there, and again, that--it 
is going to happen. My hope is, again, that we are active in 
drawing the best and the brightest here to America just as 
Fermilab had done for 30 plus years.
    Continue, I don't know if, Mr. Howard, if you----
    Mr. Howard. Yeah. I just wanted to add a couple of points.
    I actually think that JW is actually worth more to us now 
than it was in the past in terms of what it will be able to 
deliver. Probably even more now so now than in the past. 
Scientifically, it is going to be able to do things that we 
never thought we could do, make new discoveries of things in 
the universe, but there are things that have popped up just in 
the last four or five years in terms of science questions that 
we can't wait for James Webb to get into orbit to be able to 
detect.
    Water on other planets orbiting other stars. Right now, we 
have about 50 candidate planets orbiting other stars that look 
like they could support water, the right Goldilocks' balance 
between not too hot and not too cold, to be able to support 
liquid water. It will take JWST 24 hours of observing time to 
be able to look at one target and say whether or not there is 
water in the atmosphere of that planet.
    By the time we launch, that would be more than 50. I mean, 
there will be a tremendous number more, maybe two or three 
times more, candidates that will allow us to be able to look 
for that question.
    That is just one of the sort of important questions that I 
think James Webb will be able to do as we move forward.
    Mr. Hultgren. I have just a few more seconds, but I 
wondered if briefly another thing we focused on here is STEM 
education. It has been touched on briefly, but it is so 
important, again, for our young people to have something to be 
inspired by.
    I wonder if you could just talk briefly of how you see this 
playing into STEM education.
    Dr. Illingworth. I would say quickly that with the advent 
of social media and the dissemination of images and results so 
quickly, people get involved now in a way that they never did 
before. So this is becoming crucial to have these results out 
there with the visual images, the power that they have.
    Thank you.
    Dr. Blandford. I would like to just say that one of the 
things that I think NASA deserves great credit for is its 
attention it has paid over the last 10, 15, 20 years in 
disseminating, particularly to schools, the results of space 
explorations. As I said before, these are highly communicable, 
and they do excite young people and get them started on 
scientific paths which can lead to all manner of different 
careers.
    Mr. Rohrabacher. Thank you very much, and now we have Mr. 
Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. I want to thank all 
of our witnesses for their testimony, especially Dr. Blandford. 
I know, you know I have been out to Stanford, and I have met 
with Peter Michelson and others at the KIPAC Kavli Institute, 
and I understand the importance of the work that you are doing. 
It is clear that we are in tough budget times. We have to make 
sure that taxpayer money is being spent wisely, not being 
wasted. We need to make difficult choices.
    I want to start out, you know, we have had questions about 
the budget and specifically about what has been learned about 
the processes. I want to focus first as Dr. Blandford, I just 
want to make sure this is clear for the record. I know that the 
2001 National Academy Decadal Study had the James Webb 
Telescope as the highest priority. Then the next one in 2010 
assumed that the Webb would be launched in 2014, listed WFIRST 
as the top priority.
    So I just wanted to make sure that I am clear. Do you 
believe that Webb is the top priority right now?
    Dr. Blandford. What you said is correct. We took it as a 
given that Webb would be launched when we created our program, 
so we did not in any sense cross-prioritize as a committee, and 
so I cannot speak for the rest of the committee.
    My own personal----
    Mr. Lipinski. In your own personal opinion.
    Dr. Blandford [continuing]. Opinion is that the right thing 
to do is to stay the course on Webb and launch it.
    Mr. Lipinski. Yes. I understand those things happen because 
the expectations were that Webb would have been----
    Dr. Blandford. Correct.
    Mr. Lipinski [continuing]. Already was far enough under 
way, didn't have to be put there as a top priority.
    One other thing I wanted to address, when we are talking 
about what our witnesses can provide for us, I think going back 
to the question that Chairman Brooks had asked, unfortunately 
he is not still here, I serve as Ranking Member on the 
Subcommittee, Research and Science Education Subcommittee, with 
Chairman Brooks, and I think it is an important question of 
what difficult choices do we make.
    However, I believe that right now the witnesses that we 
have here today are not the ones to answer a question about 
what NASA should cut. You know, Mr. Howard, being with--in his 
position, yes, that could be a question you could answer. The 
other three witnesses I don't think really are in the position 
to answer that question, and hopefully if that question does--
if the majority wants to have that question answered, that we 
will have another hearing with the appropriate witnesses for 
that question. I don't think that the other three witnesses 
here are appropriate for that question. I think a lot of the 
other questions that I was going to ask have already been 
asked.
    I just wanted to give, first of all, Mr. Howard, the 
opportunity, you ran out of time, Ms. Lofgren was asking you 
about what were some of the things that we had gained already 
from Hubble, and maybe talk about what we could do with the 
Webb Telescope.
    Was there anything that you wanted to add there that you 
didn't have a chance?
    Mr. Howard. I think that was in reference to what we have 
gained as far as the technology developments for JWST.
    Mr. Lipinski. Yes.
    Mr. Howard. One thing that I would want to add is, you are 
talking about the mirror, the mirror development. This was a 
very long process of over 10, 15, almost 15 years to develop 
these mirrors, and initially when this started, this started as 
a joint technology activity between NASA, the Air Force, and 
the NRO to develop large, lightweight segmented mirrors for use 
in space. And JWST gained a tremendous amount of insight as to 
the development of those types of mirrors for our application, 
which is a cryogenic. The DOD has learned a lot from that 
activity also and continued on with that activity.
    So I think that is another good example of the benefits of 
technology development for these large missions such as JWST, 
which is not just back into other applications in the United 
States, for example, in the medical field but in terms of other 
agencies using and benefiting from those activities.
    Mr. Lipinski. Thank you, and I just want to use my last 
time to also say that I think the benefits for STEM education 
as one of the co-chairs of the STEM Ed Caucus, I think it is 
very important that we continue to do this work with the Webb 
Telescope and other work that we are doing to inspire as Dr. 
Blandford and Dr. Illingworth had talked about, inspiring the--
our students today.
    Thank you. I yield back.
    Mr. Rohrabacher. Thank you very much, and Mr. 
Sensenbrenner.
    Mr. Sensenbrenner. Thanks very much. I hate to be the skunk 
at the lawn party, but somebody has got to be the skunk before 
we have to go over and vote.
    Mr. Rohrabacher. I think the Chairman already decided to do 
that.
    Mr. Sensenbrenner. Okay. Well, Mr. Howard, did you ever see 
the movie called ``The Money Pit?''
    Mr. Howard. Yes. Absolutely.
    Mr. Sensenbrenner. And you remember that the owner of the 
house started out, and there kept on being problems, and there 
was more and more money thrown into it, and somehow it never 
really did get done properly, at least that is how I recall 
that movie. Is my recollection correct?
    Mr. Howard. Yes. I think the standard line in that movie 
was, it is only two more weeks.
    Mr. Sensenbrenner. Uh-huh. Well, you know, I have heard 
this before with the International Space Station, is that we 
threw a lot of money into the International Space Station, and 
it was only getting the Russians to do something, and then 
there was something else, and then there was something else, 
and what started out being an $18 billion project ended up 
being $100 billion project, and its completion date was 
significantly delayed.
    Now, while I recognize, Mr. Howard, that you have only come 
onboard the Titanic in 2010, after it hit the iceberg, here we 
are talking about a project that has a $7 billion cost overrun 
from the initial proposal that we had in 2001. And an 11-year 
delayed completion since the Webb Space Telescope was 
originally slated to be launched in 2007.
    Now, how can we justify this to our constituents?
    Mr. Howard. So thank you for that question. I knew it would 
come sooner or later.
    So I think part of this is we have to realize that early 
estimates on the cost of James Webb going all the way back to 
the early period of time back in '97, or before period, were 
just that, estimates, and the first time that the agency was 
ready to commit to a price for James Webb was in 2008, and that 
is the $5 billion.
    So there is lots of history that I could go over as to what 
happened and led from all those early estimates.
    Mr. Sensenbrenner. So what you are telling the Committee is 
from now on in we shouldn't believe any early estimates before 
we start appropriating money, and we should get an actual 
proposal and see what is going to happen based on that?
    Mr. Howard. I think the early estimates going back to, if 
you want to go back to where it was around $1 billion, was for 
a very simple telescope, for a meter telescope with one 
instrument on it, not a suite of four instruments. It did not 
have the benefit of having detailed cost assessments on it----
    Mr. Sensenbrenner. Okay.
    Mr. Howard [continuing]. Nor the industry proposals.
    Mr. Sensenbrenner. Well, you know, the fear that I have is 
that you are in charge of a program that is going to end up 
gobbling up resources that are available to other NASA programs 
just like the Space Station did. Now, I have only got about a 
minute and 40 seconds left, and I want to put something else on 
the table.
    When the Hubble was launched, we found out when it got up 
there that one of the lenses was improperly or incorrectly 
ground, and we had to send the Space Station up or the Space 
Shuttle up on a real quickie repair mission. We don't have the 
Shuttle anymore, and what is going to happen if we need to 
repair the James Webb Space Telescope or we find out that some 
of the parts in the telescope were not properly done and as a 
result we are not getting the results out of it that we had 
anticipated just like what happened before the repair on the 
Hubble?
    Mr. Howard. So JWST is designed in such a way that it has 
adjustments to each of the mirrors so that we can adjust the 
positions of the mirrors rather than----
    Mr. Sensenbrenner. Again, the Hubble problem was not a 
problem of the mirrors being improperly adjusted. It was a 
problem of the mirrors being improperly ground.
    Mr. Howard. And we have tested that and checked the 
mirrors. We have just done that down at Marshall at operating 
temperature, each element individually. We are also going to be 
testing all the elements together.
    Mr. Sensenbrenner. You still haven't answered the question 
on how we are to maintain it or repair it or if something comes 
up that was not delivered according to specifications, what do 
we do if it is in orbit and we don't have a Shuttle?
    Mr. Howard. So the answer is that we know that we only have 
one chance to get this right. It is going out to L-2. It is not 
going to be in orbit around the Earth. It is going to a 
distance four times further away than the Moon, and so we are 
taking every step we can to mitigate the risks to make sure 
that we do have a system that can work.
    Mr. Sensenbrenner. You have just increased my skepticism 
given the history, and I have been on this Committee longer 
than anybody else. I hope that we will have some much better 
answers. Otherwise I can see another money pit coming up 
because the Space Station sure was that.
    I yield back.
    Mr. Rohrabacher. Thank you very much.
    Ms. Edwards.
    Ms. Edwards. Thank you very much, Mr. Chairman, and thank 
you to our witnesses, and I apologize that I wasn't here 
earlier. I did have a chance to review testimony, and just want 
to reiterate how proud and excited we are that the James Webb 
Space Telescope is managed and directed out of the Goddard 
Spaceflight Center in Prince George's County in Greenbelt, 
Maryland. The project, as you have described, there are 500 
jobs that are supported by James Webb in Maryland, 1,200 jobs 
all across the country, and I am sure you have pointed out in 
your testimony and response to questions that other than about 
100 of those, they are private-sector jobs. And so I think it 
underscores the importance of the work that we are doing, the 
phenomenal work that is being done in astrophysics that is 
actually about job creation, it is about innovation, it is 
about the 21st century, and so I appreciate that.
    My question, and I just wanted to note for the record, one 
of my favorite pages in the Washington Post is in the Metro 
section. It is the federal workers, and today on the federal 
worker there is a--Roger Hunter is being highlighted for the 
work that he has done on the Kepler Space Telescope Project, 
and we know now about the just-found planet, Kepler 22b, and 
the excitement that is being generated because we discovered 
something that we didn't know before with a project that 
started out where we didn't know what we would necessarily 
find, and I think that that is the hallmark both of what NASA 
does and certainly what is taking place with the James Webb 
Space Telescope.
    I want to ask you, Mr. Howard, just a couple of questions, 
and one has to do with, you know, as the lessons we have 
learned over this last couple of years with James Webb, you 
have highlighted the problems already and the difficulties of 
going from an idea and some initial estimates to a full-blown 
project and really understanding what the real costs are going 
to be and then sharing those with us and developing the kind of 
management strategies that are going to be important going 
forward so that we don't run into problems.
    I wonder if you could tell us about some very specific 
milestones that we as a Committee can look at over this next 
year where we can hold the agency accountable, the project 
management accountable, and know that the James Webb Space 
Telescope is on track?
    Mr. Howard. Thank you for the question. As I said in my 
written testimony in fiscal year 2011, we had 21 milestones 
that we were tracking and watching to see that we could meet. 
We met 19 of those ahead of schedule or on schedule. One of 
those was a month late due to snow, wind, and not fitting into 
a C-5 transport airplane the way it was supposed to be 
designed, and one we deferred for good reason because we are in 
the process of looking at a design change to that unit.
    For fiscal year 2012, we have already established about 37 
milestones that we have, and of those, the ones that I think 
certainly that rise to the highest level of scrutiny and we 
want to watch are the delivery of all four instruments, all 
four science instruments including the ones from Europe and 
Canada will be arriving this year. That will be major 
milestones to get those in as we can then start the integration 
and testing of those instruments with the integrated science 
instrument module where they fit.
    Completion of the mirror testing is just about done. That 
will be ending up within the next few months. That also is a 
major milestone to get those mirrors all tested.
    Completion of the center section of the primary back-up 
structure, which supports the mirrors, is another major 
activity that has been going on for well over, almost a year I 
guess, and should be--will be complete in the flight structure 
this year, the central core.
    And then I would think completion of the fifth sunshade 
engineering unit that we are doing, full-scale size of the 
sunshade, layer five is probably the most complicated or one of 
the most complicated ones that we have, and completing the 
engineering unit of that full scale and testing to show that it 
will perform properly in space, I think, is another milestone.
    Ms. Edwards. Thank you, Mr. Howard, and you can count on me 
and I am sure others of our colleagues taking notes about those 
particular of the milestones that you have outlined for this 
next year and asking you about them, keeping track of them, and 
I know that you will do the same, because I think that will 
help give us all the kind of confidence that we need going 
forward, both in terms of completion but also in terms of the 
fiscal accountability I think that all of us expect on the 
project.
    I won't have time for the question but really want to 
underscore the value and the importance, I think, of the 
private sector workforce, and particularly the work of Northrop 
Grumman and all of the other attendant folks all across this 
country who are working on this important project. I look 
forward to its completion, I look forward to launch, and I look 
forward to us paying attention to the elements of the project 
that are going to enable it to go forward.
    And I know the difficulty of starting out in one place 
where you are imaging something and then trying to respond to a 
Congress to get us to make that investment but because it is 
science, you don't know what all the variables are until you 
get into it, and that, I think, for those who are skeptical 
accounts for some of the differences apart from some other 
issues that you have outlined that make it really difficult at 
the very outset of a project like this and its magnitude to 
fully appreciate what the real cost is going to be in 
delivering it. And I think that as taxpayers, we are going to 
see the value for that dollar even if we can't see it right 
now.
    Thank you very much, and I yield.
    Mr. Rohrabacher. Thank you very much, and the Chairman will 
yield such time as he will consume to himself.
    Let me just note for the record that I believe that 
glossing over incompetence and mismanagement on a scale such as 
we are talking about today is not a favor to the taxpayer, and 
it is not a favor to the American Space Program. And using an 
occasion like this in which we are talking about $7 billion 
that is now going to have to be taken out of other space 
programs and using this as an opportunity to puff NASA's basic 
mission is not doing a favor to America's Space Program, nor to 
the taxpayers.
    We need to get down to business, and that is why I was 
hoping that there would be an answer to the very significant 
question that was poised to the panel, and let me note no one 
in the panel answered. The only answer that ended up was that 
we are going to have the answers in a few weeks when we release 
some kind of a document.
    Let me just get right to the matter. We just heard people 
talking about how great STEM education is rather than this cost 
overrun and what NASA is doing for that.
    Now, is it possible that we are going to have to de-fund 
all of that great STEM Program and all of this education 
because of the $7 billion overrun that we are talking about 
today? Is that possible? If it is the number-one priority, 
isn't that what we are talking about?
    So here we are puffing a very nice, good program for NASA, 
but at the same time ignoring the fact that this cost overrun 
may cost us that program.
    Mr. Howard, could you name for us some of the programs that 
are going to be totally de-funded because of this cost overrun?
    Mr. Howard. The $156 million in fiscal year 2012, which is 
the increase of JW over the President's budget request, is 
being split 50/50 between science and the cross-agency support 
activity. The cross-agency support level with that reduction 
takes us down to a level for institutional support to the NASA 
centers. It is about the level that fiscal year 2010 was.
    Mr. Rohrabacher. All right, but what we are talking about 
is not just that amount of money. What we are talking about is 
an overall budget in the future that then you have to calculate 
in which programs will be able to be funded.
    Now, like for example, you have the LISA Program, TPF, the 
SIM, we got International X-ray Observatory, SHIPSAD, all of 
these are on the line, are they not?
    Mr. Howard. Some of those missions were not even 
prioritized in the current decadal if I remember correctly.
    Mr. Rohrabacher. Right.
    Mr. Howard. SIM has been stopped, was stopped numbers of 
years ago before we ran into this situation.
    Mr. Rohrabacher. Okay.
    Mr. Howard. But I think it is important to recognize that 
in the '12 to '16 timeframe we are talking about $1 billion, 
still not an insignificant amount of money, that needs to be 
provided above what was in the President's budget request in 
that period of time.
    Mr. Rohrabacher. If you try to limit the time period that 
you are talking about, but if you take a look at the magnitude 
of the money and how that will affect things, for example, I 
understand the WFIRST, this Wide Field Infrared Survey 
Telescope, that is being postponed now, what, for five years, 
and when you have budgets, you have budgets, and there is an 
impact when people go over budget.
    And you could spend half of the time of this hearing if we 
want finding how wonderful NASA's basic mission is and how it 
is going to inspire people, but if we keep having cost 
overruns, you are going to become the laughingstock of the 
federal budget process because we will know that we can't count 
on what you are telling us.
    Look, I supported the Hubble Telescope, even after the 
catastrophic mistakes that were made in that project and which 
caused enormous new costs to the project that had to be taken 
out of other projects, and let me note during that time period 
I asked, who was responsible, and who was reprimanded, and who 
was fired?
    Now, we have testimony today that this overrun is not being 
caused by technical difficulties, meaning there has not been 
some technical thing that we just can't overcome, but instead 
by, am I correct, Dr. Illingworth, you had suggested that it 
was budget and management problems?
    So maybe say that management has something to do with 
competence, if someone mismanaged a project of this magnitude, 
their competence would be called into question. If this was the 
private sector, it certainly would, and hopefully--this 
government agency as well.
    Who has been reprimanded or fired from NASA for this? Is 
there an answer?
    Mr. Howard. Yeah. There is a very good answer to that.
    Mr. Rohrabacher. Okay.
    Mr. Howard. All of the top management in JWST, both at 
Goddard and at headquarters, was replaced.
    Mr. Rohrabacher. Okay.
    Mr. Howard. And there is a new team that is in place, 
myself being one of them.
    Mr. Rohrabacher. Right. Are they still working for NASA?
    Mr. Howard. Those people were assigned to other activities, 
some--yes. All of them, I think----
    Mr. Rohrabacher. All of them are still working for NASA?
    Mr. Howard. They were all----
    Mr. Rohrabacher. So did they take a pay cut?
    Mr. Howard. I do not know that.
    Mr. Rohrabacher. Okay. So we know no one lost their job. 
They just got transferred to someplace, and they are making the 
same amount of money. When we talk about responsibility and we 
talk about trying to do our best job for the taxpayer but also 
for America's Space Program, we are not just talking about 
balancing the budget here. We are talking about having a viable 
space program for the United States of America.
    I don't think that we can just have three priorities for 
America's Space Program. I think there are a lot of things to 
do, and I tried to be, as I say, there is no one been more 
supportive of space telescopes and astronomy than I have been 
in my 20 years here.
    Six billion dollars more? We are going to take that money 
from everybody's pocket. All this other puffery that we have 
heard today will be de-funded because of what we are--because 
of the incompetence of people that we cannot even take off the 
payroll.
    We need to work together, NASA and Congress, and by the 
way, I am open, and Ms. Edwards, I think, we suggesting that 
maybe Congress, there are some things that we were doing that 
have contributed to some of these cost overruns, providing not 
as much money as we had promised or something like that. Maybe, 
Dr. Illingworth, is there something that we have done that has 
caused this specific overrun? That the Congress has done? The 
vote has been called, so you are all safe.
    Ms. Johnson. Mr. Chairman.
    Mr. Rohrabacher. But let me just note, Ms. Johnson has 
asked for a closing statement, and I think that is absolutely 
fine, considering how much time I permitted----
    Ms. Johnson. Thank you.
    Mr. Rohrabacher [continuing]. Someone else to take earlier.
    Ms. Johnson.
    Ms. Johnson. Thank you very much, and thank you, Mr. 
Chairman, and I am just as concerned about overruns as everyone 
else, but I wanted to share that some years ago when I was 
having to wear glasses for nearsightedness, I was always going 
to sleep, stepping on them, sleeping on them, and would go to 
another room and left them in another room. And I finally tried 
contacts. Because of allergies, I didn't do as well with them, 
and I went to an ophthalmologist who suggested that I get some 
cornea implants. That research came directly from the 
telescopic research.
    I had to save up my money; the insurance didn't cover it, I 
paid it from my pocket, $5,000 per eye, and now I can see 
without any glasses whatsoever.
    So that is one thing that this research has brought, and I 
had to wait in line to get this surgery. It is much in demand, 
and so I just want to say, Mr. Chairman, that when we know that 
when research has begun, we have no idea what we are going to 
find.
    Now, I am much more concerned about a first strike in a war 
that we started and we knew we were getting into war and now 
that overrun has been almost $100 billion, and so that concerns 
me a lot more than making mistakes in research.
    Thank you.
    Mr. Rohrabacher. I think that is a very good point, and I 
certainly wouldn't ever ignore that point, and it is a very 
important point for us to understand, and my closing statement 
basically is this. I have a seven-year-old son, and I have two 
seven-year-old daughters, triplets. All right. Well, this 
weekend, guess what? A glass just fell off the table, and the 
broken glass is there, and did you drop that glass? Did you 
push that glass off the table? Oh, the glass just fell off the 
table. No, the glass didn't fall off the table. He had hit it 
with his elbow. He actually did something to make the glass 
fall off the table.
    He will learn his lesson. We have got to learn our lesson. 
We are responsible when there are failures like this. We are 
responsible for the broken glass. We are responsible when we 
don't have the money to do other space projects because we have 
gone along with incompetence and permitted overruns that are 
unconscionable and de-fund other programs. And when we can't 
even fire the people and get them off the payroll who are 
responsible for this type of travesty, we have got real 
problems. We in Congress have to solve when we have 
shortcomings as well.
    We want to thank all of the witnesses and thank you for 
putting up with me here at the end. With the questions 
complete, I thank the witnesses for their valuable testimony 
and the Members for their questions.
    The Members of the Committee may have additional questions 
for any one of you, and we will ask that you respond to those 
in writing. The record will remain open for two weeks for 
additional comments from Members.
    This hearing is adjourned.
    [Whereupon, at 3:49 p.m., the Committee was adjourned.]
                                Appendix

                              ----------                              


                   Answers to Post-Hearing Questions



                   Answers to Post-Hearing Questions
Responses by Mr. Rick Howard,
Program Director, James Webb Space Telescope,
National Aeronautics and Space Administration



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Roger Blandford, Professor of Physics,
Stanford University and Former Chair,
Committee for the Decadal Survey of Astronomy and Astrophysics,
National Research Council



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Garth Illingworth,
Professor and Astronomer, UCO/Lick Observatory, 
University of California, Santa Cruz



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Mr. Jeffrey D. Grant,
Sector Vice President and General Manager,
Space Systems Division,
Northrop Grumman Aerospace Systems



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               Appendix 2

                              ----------                              


                   Additional Material for the Record



             Ten New Technologies Developed by and for JWST


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
